<html>
<title> - THE THREAT TO THE U.S. HOMELAND EMANATING FROM PAKISTAN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
        THE THREAT TO THE U.S. HOMELAND EMANATING FROM PAKISTAN 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2011

                               __________

                           Serial No. 112-21

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

72-231 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Jackie Speier, California
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Henry Cuellar, Texas
Ben Quayle, Arizona                  Brian Higgins, New York
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Kevin Gundersen, Staff Director
                    Alan Carroll, Subcommittee Clerk
              Stephen Vina, Minority Subcommittee Director


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Jackie Speier, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence..............................     3
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     5

                                Witness

Mr. Frederick W. Kagan, Resident Scholar and Director, American 
  Enterprise Institute Critical Threats Project:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Seth G. Jones, Senior Political Scientist, The Rand 
  Corporation:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. Stephen Tankel, Visiting Fellow, South Asia Program, The 
  Carnegie Endowment for International Peace:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. Shuja Nawaz, Director, South Asia Center, The Atlantic 
  Council:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32


        THE THREAT TO THE U.S. HOMELAND EMANATING FROM PAKISTAN

                              ----------                              


                          Tuesday, May 3, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2 p.m., in Room 
311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Cravaack, Quayle, Rigell, 
Long, Marino, King (ex officio), Speier, Sanchez, Cuellar, and 
Higgins.
    Mr. Meehan. The Committee on Homeland Security Subcommittee 
on Counterterrorism and Intelligence will come to order. The 
subcommittee today is meeting to hear testimony about the 
threat to the U.S. homeland emanating from Pakistan.
    Let me take a moment to make an opening statement. I would 
like to welcome everybody to today's Subcommittee on 
Counterterrorism and Intelligence hearing. I look forward to 
hearing from the witnesses on the on-going danger emanating 
from Pakistan to the United States and the intent and 
capability of the various terrorist organizations operating in 
Pakistan to strike the U.S. homeland.
    At the outset I want to let everyone know that today's 
hearing will be interrupted at 3 p.m. due to a classified 
briefing from CIA Director Panetta, NCTC Director Leiter, Vice 
Chairman Cartwright and Deputy Secretary Steinberg. I ask 
patience from our witnesses and thank you ahead of time to the 
extent you are able to accommodate this.
    Today's hearing is the third hearing the subcommittee has 
held, and it is aimed at educating Members about the myriad 
terrorist threats to the homeland from various parts of the 
world. So far we have heard from experts on the threat posed by 
AQAP in Yemen and the ramifications of unrest in the Middle 
East and North Africa on U.S. counterterrorism efforts.
    Today's hearing also comes at a historic moment in the 
global war on terrorism. In the last 48 hours, and at the 
direction of President Obama, and as a result of the incredible 
work of the U.S. military, the intelligence community, and law 
enforcement, al-Qaeda leader and 9/11 mastermind Osama bin 
Laden was killed by U.S. forces deep inside Pakistan.
    This is a critical blow to al-Qaeda and the ideology of 
militant Islam. It is a victory for the United States and our 
allies around the world. As President Obama stated, the world 
is a safer, more secure place as a result of Osama bin Laden's 
death.
    I commend President Obama and his National security team 
for the planning, the execution of the mission, and for taking 
the enormous risk to eliminate bin Laden. The Nation is 
grateful for his leadership. We are also deeply grateful to the 
men and women who carried out the mission. Their dedication, 
professionalism, and sacrifice exemplify the best of our 
fighting forces.
    Today's hearing was originally aimed at delving deeper into 
the various terrorist organizations operating in Pakistan and 
their intent and capability to strike the U.S. homeland. We 
will still conduct that important examination, but, however, in 
light of the events of the last 72 hours, we will try to make 
sense of the important questions in the wake of the bin Laden 
killing, including the extent to which Pakistan is cooperating 
in the fight against terrorism.
    I would like to highlight the fact that Pakistan has 
provided enormous assistance in the last decade and in the 
fight against al-Qaeda, including critical intelligence and 
military operations. In fact, they have been a critical ally to 
the West for decades. They have lost thousands of soldiers and 
innocent civilians in the fight against Islamic militancy. They 
have also been responsible for capturing and killing more 
terrorists inside of Pakistan by a large margin. Their efforts 
should be commended, and the United States must continue to 
foster this United States-Pakistan relationship. We must make 
this relationship work.
    But despite bin Laden's killing, the fact is that the 
threat from al-Qaeda and affiliate groups remains as dangerous 
as it did last Friday. In fact, CIA Director Panetta warned 
yesterday that terrorists almost certainly will attempt to 
avenge him, and we must remain vigilant and resolute. If 
anything, the threats are even more dangerous in the days and 
weeks ahead after his demise.
    This was most obvious last May when a Pakistani-born U.S. 
citizen named Faisal Shahzad drove an SUV into Times Square in 
an attempt to kill hundreds of people. Shahzad traveled to 
Pakistan and received training from TTP and indicated at his 
sentencing hearing that his attack was retribution for U.S. 
drones in Pakistan. Retribution has been a driver of attacks in 
the past, and we must be on guard.
    I look forward to hearing from today's witnesses on the 
myriad of terrorist groups operating in Pakistan and their 
intent and capability to strike the homeland. These amorphous 
and continually evolving groups present huge challenges to the 
United States, and it is critical that we, as Members of 
Congress, do everything we can to completely understand the 
threat, especially in light of bin Laden's killing and its 
ramifications.
    Nevertheless, certain facts are as clear as they are 
disturbing. Osama bin Laden was the world's most wanted 
terrorist. He was discovered not in the caves of Tora Bora, nor 
in Saudi Arabia, or in Yemen, or even Iran, as Pakistani 
Interior Minister Rehman Malik suggested when visiting Members 
of Congress traveled to the area in 2009. He was discovered in 
a mansion fortress prominent for its size as well as its 
location, in Abbottabad, a well-populated city just a short way 
from Pakistan's military academy.
    The President's counterterrorism adviser John Brennan 
stated today that Osama bin Laden lived in that compound for 6 
years. In John Brennan's words, it is inconceivable that bin 
Laden did not have a support system in the country that allowed 
him to remain there for an extended period of time.
    Members of Congress have a responsibility to ask what kind 
of support system or benefactors could have allowed bin Laden 
to maintain this safe haven? What should Pakistani officials 
have known about such a support system, and who should have 
known it? How is it that a mansion complex with 18-foot walls 
and barbed wire capping can avoid the scrutiny of 
investigative, military, and government officials who make it 
their business to know what is going on around them? Why did 
Pakistani officials not investigate?
    At a tremendous time of fiscal challenge here at home, the 
United States is asking citizens to support the expenditure of 
billions of dollars of military and foreign aid to Pakistan.
    Before I turn to the Ranking Member, I would like to make 
one more important point about Osama bin Laden's killing. I am 
heartened to know the last thing Osama bin Laden saw before 
death was an American soldier bearing down on him with an 
American flag on his shoulder. That he reportedly died using a 
woman as a human shield is an image that cements the true 
nature of his character, and such cowardice will be part of his 
legacy.
    Bin Laden's demise will not diminish the pain and loss for 
the families of victims of September 11, nor will it 
significantly diminish the threat of terrorism that emanates 
from this complex region, but it closes a chapter and fulfills 
our Nation's promise that with respect to bin Laden, we would 
not rest until justice is served.
    I look forward to hearing from today's witnesses.
    The Chair now recognizes the Ranking Minority Member of the 
subcommittee and the gentlewoman from California Ms. Speier for 
any statement that she may have.
    Ms. Speier. Mr. Chairman, thank you. Thank you for holding 
this hearing today on the threats from terrorist groups in 
Pakistan.
    On Sunday night, this hearing took on a completely new 
dynamic when the world learned that the mastermind of 9/11 and 
the inspirational leader for numerous other terrorist plots was 
killed in a firefight with U.S. Special Forces. The death of 
bin Laden, as many have stated, marks a monumental achievement 
in our Nation's effort to defeat al-Qaeda.
    Many people deserve recognition for their steadfast efforts 
and sacrifices over the last 10 years; three Presidents, our 
military, and our homeland intelligence community. But, we must 
not rest on our laurels either. While al-Qaeda may be 
symbolized by bin Laden, the terrorist network is now much 
bigger than just him. So we must remain vigilant as affiliated 
groups and radicalized individuals pursue attacks against us.
    With bin Laden's death we are left asking, what is next for 
al-Qaeda? How real is the threat of retaliation? How will our 
relationship with Pakistan be impacted?
    Pakistan has been a key ally in our counterterrorism 
efforts against al-Qaeda and other extremist groups in the 
region. Scores of Pakistani soldiers have lost their lives 
fighting against the Taliban and al-Qaeda, and the Pakistani 
government has helped us disrupt and dismantle terror networks 
since 9/11.
    But what did they know and what should they have known 
about bin Laden's whereabouts and the massive compound about 30 
miles outside of Islamabad where he was living? Bin Laden was 
not found in a cave. His compound was less than 2 miles away 
from an elite Pakistani Army training academy, and we have to 
question how he was able to hide in plain sight for such a long 
period of time.
    We have also heard several disturbing reports, including a 
recent statement by Admiral Mullen, the Chairman of the Joint 
Chiefs of Staff, indicating that some members of Pakistan's 
intelligence services have ties with certain terrorist groups.
    We must attempt to answer these critical questions because 
our relationship with the Pakistani government hinges on what 
we discover.
    Pakistan appears to have become a breeding ground for a 
variety of terrorist organizations, including al-Qaeda. While 
bin Laden's compound demonstrates that extremist elements are 
spread throughout the country, much of the terrorist threat is 
concentrated in the FATA on the western border of Afghanistan. 
This fiercely autonomous area has been home to numerous 
terrorist organizations since 9/11 and is so perilous that 
Western aid workers can't provide any effective services there.
    What social forces make these areas ripe for terrorists, 
and how can we change that dynamic? Although we have had some 
success in targeting key militants in this area since 9/11, the 
terrorist networks have proven resilient, simply relocating to 
other parts of the country. Now we must determine how to snuff 
out bin Laden's legacy and to what extent al-Qaeda will 
continue or speed up plotting against the West.
    Throughout the FATA and beyond, new groups have sprouted up 
and have rivaled al-Qaeda with their deadliness and willingness 
to attack the United States. TTP, the Pakistani Taliban, has 
been gaining momentum for the past several years and displayed 
a reach that shocked many American officials when the TTP-
trained Pakistani-American, Faisal Shahzad, attempted to 
detonate a car bomb in Times Square in New York. TTP and many 
other groups, including the Haqqani network, operate hand-in-
hand with al-Qaeda in Pakistan, making the region a hotbed of 
extremism.
    It has become widely apparent that the existing groups in 
Pakistan have embraced the ideological cancer of al-Qaeda, and 
while we once believed they posed little threat to America, we 
now are gravely concerned.
    At the top of this list is LeT, a group that signaled its 
evolution into a global jihadist organization by carrying out 
the Mumbai attacks in 2008. Various media reports have 
speculated that LeT, like the Pakistani Taliban, may have grown 
closer to al-Qaeda both ideologically and operationally.
    Will the death of bin Laden bring these loosely associated 
groups closer together and raise the threat to the United 
States homeland? We certainly know that the radicalism preached 
by these groups presents a serious danger to religious 
minorities; such as, the Ahmadis, women, and political 
opposition leaders in Pakistan. Their message also seems to be 
gaining support and weakening the will of the Pakistani 
government to work with us. When the Pakistani government has 
mustered the political will, however, the army has been 
effective in launching devastating attacks against the 
militants.
    How do we ensure that Pakistan is working with us to combat 
all terrorist groups in the region? Shouldn't we also 
proactively attack the source of the extremism by investing 
more in economic and social opportunities in Pakistan to 
prevent the youth from turning to terrorism?
    I look forward to hearing our witnesses' testimony today, 
because finding solutions to these questions requires a better 
understanding of an extremely complex threat environment.
    Again, I would like to commend the President for his 
courage, and all the brave men and women that put their lives 
on the line for our security, and thank them for the sacrifices 
that they have made for all of us here at home.
    Mr. Meehan. Thank you, Ms. Speier.
    I am also pleased to have the attendance today of the 
Chairman of the Committee on Homeland Security, Mr. King from 
New York, and I would like to invite Mr. King to make any kind 
of opening statements he may wish to do.
    Mr. King. Thank you, Chairman Meehan. Let me commend you 
for this hearing and for the series of hearings you have 
conducted this year in your capacity as Chairman of the 
Subcommittee on Counterterrorism and Intelligence. You and the 
Ranking Member have done an outstanding job, and I truly 
commend you for it.
    Let me also join with everyone here in commending the 
President of the United States for the killing of Osama bin 
Laden. This took courage by the President and people I have 
spoken to who were very involved with the whole operation.
    The fact is that when the President made his decision, 
there was no specific evidence at all that bin Laden was in 
that compound. There was a collection of circumstantial 
evidence, but it took courage by the President to make the 
decision to go ahead, because if that operation had--not 
failed, he certainly would have received the blame for it. He 
put himself and the country on the line, and he succeeded. It, 
again, showed true capacity as Commander-in-Chief, and I 
commend him for it.
    I also, of course, commend the Navy SEALs who carried out 
that operation under extraordinary conditions at night, not 
knowing what was going to await them when they went into that 
compound, also not knowing if on the flight back to Afghanistan 
they could be intercepted by Pakistani jets. So all in all this 
was an extraordinary achievement, and we have to commend all of 
them.
    Your hearing today is particularly topical. Just a little 
over an hour ago, I met with the Pakistani Chief of Mission to 
the United States and expressed to her the real concerns that I 
and many people have about Pakistan's role in the war against 
terrorism.
    I remember back in 1998, when the African embassies were 
attacked, and President Clinton wanted to retaliate by firing 
rockets through the al-Qaeda compounds in Afghanistan. We 
advised the Pakistan government that the rockets would be going 
through their airspace, and the result was al-Qaeda was tipped 
off. Bin Laden was not killed. He could have been killed on 
that day 13 years ago, and things would have been so much 
different.
    So we have had this mixed relationship with Pakistan all 
along. I remember just 2 days after September 11 meeting with 
President Bush at the White House when he told us the first 
priority was to have the Secretary of State tell President 
Musharraf of Pakistan that really it was time to be with us or 
against us on this. At that time Pakistan did cooperate for a 
period of time at least.
    But since then the record has been mixed. There is no doubt 
that there have been elements in the ISI which have not been 
supportive of opposition, which have at least a dual loyalty. 
But there was a feeling that we got more from the relationship 
than we lost. On balance Pakistan, because of its strategic 
position, possession of nuclear weapons, the access that it did 
have to intelligence, that this was a relationship that on 
balance was in our favor.
    But the events of the last several weeks, just learning 
that you had this compound right, as the Chairman pointed out, 
so close to a major military academy in Pakistan, the fact that 
the ISI maintained their headquarters very close by, the fact 
that that neighborhood in particular was populated by many 
prominent retired military and intelligence officials, and to 
learn that for 6 years Osama bin Laden was living in that 
compound, it really raises--there is only one answer to me. 
There are the two possibilities and one answer. One is that 
there was direct facilitation by elements of the Pakistani 
government, or Pakistani intelligence is entirely inept. That 
has not proven to be the case over the years. In fact, some of 
us raised the issue, does the ISI spend more time tracking down 
members of the CIA than it does members of al-Qaeda?
    So this is really a crossroads, I believe, in our 
relationship with Pakistan. We have had, as I said, good days 
or bad days with Pakistan. They are, I believe, essential to 
the success of the war against terrorism. But we cannot allow 
situations to exist where the most notorious terrorist, 
murderer, mass murderer in the world was literally living right 
under the nose of top Pakistani government officials.
    So I look forward to the hearing today. I hope we can find 
a way forward with Pakistan, but, again, the events of the last 
several days to me mark a definite crossroads in that 
relationship.
    In conclusion, let me thank all of the witnesses for being 
here today. To give of your time and your expertise is very 
important to us.
    Let me give a special thanks to Dr. Kagan, who I had the 
pleasure of meeting with a number of times over the years, the 
first time being back in 2007 when he was formulating the surge 
policy in Iraq, which everyone said could never work. Thank God 
the President listened to Dr. Kagan, and it did work. So thank 
you for all of your services, and especially you, Dr. Kagan.
    I yield back.
    Mr. Meehan. Thank you, Mr. Chairman.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    We are pleased to have four distinguished witnesses before 
us today on this important topic, and let me remind the 
witnesses that your entire written statement will appear in the 
record, and so I would ask you to do the best you can to focus 
your comments with appreciation for the 5-minute bell.
    So today's first witness is Frederick Kagan. It is my 
understanding you have to leave the hearing early to attend a 
personal issue, but I am very grateful. I want to remind the 
Members that we may have questions from others for you which 
will be submitted to you in writing, and I hope that you would 
be able to be responsive.
    Due to the time constraints, I am going to dispense with 
providing long biographies on today's witnesses, but I will 
point out that Dr. Kagan was one of the principal authors of 
the surge in Iraq, and I want to thank you for your 
contribution during that difficult time in our Nation's 
history. I also understand you just returned from Afghanistan, 
so you have a fresh perspective from that theater. We will make 
available to anybody who asks the full biographies as we had 
prepared for our very distinguished panel.
    So, Dr. Kagan, you are now recognized to summarize your 
testimony.

STATEMENT OF FREDERICK W. KAGAN, RESIDENT SCHOLAR AND DIRECTOR, 
     AMERICAN ENTERPRISE INSTITUTE CRITICAL THREATS PROJECT

    Mr. Kagan. Thank you very much, Mr. Chairman. Thank you for 
your kind words. Also, thank you, Chairman King, for your very 
kind words, and thank you to the entire subcommittee for 
holding this series of hearings and for the way that they have 
been framed.
    I am going to try to keep my remarks focused exactly as, I 
think, the committee has posed this series of questions, which 
is to say let us focus on diagnosing the problem. Let us focus 
on understanding the challenge in detail and in nuance, and let 
us understand that there is no immediate, obvious ``therefore'' 
clause that emerges at the end of the long series of 
``wherefores'' that we can lay out here, because I will not 
opine on the degree of complicity of the Pakistani Government 
in this al-Qaeda--in bin Laden's presence for the raid, because 
I don't know, and I won't offer opinions about it.
    But I will say that the comments of all, of Chairman King 
and the Chairman and Ranking Member here, are absolutely right. 
At the end of the day, there is no simple solution to the 
problems that we face with Pakistan. As challenging and 
frustrating as the relationship has been, we have experimented 
with simple solutions like cutting Pakistani aid completely and 
throwing Pakistan over. We have experimented with more 
generous. It is not clear what effect any of that behavior has.
    But it is clear that in general terms things don't go well 
for us when we simply decide to treat Pakistan as an enemy, and 
whatever degree of support or--for either our enemies or for us 
the Pakistani state is showing, I think we need to recognize 
it, I think we need to understand it, and then I think we have 
to develop what will have to be inevitably a frustrating and 
nuanced, complicated policy approach that will serve our 
interests and not merely satisfy our pique, which is 
understandable, but at the end of the day is not a sufficient 
basis for making this kind of call.
    The roll call of bad organizations, dangerous organizations 
in Pakistan is very long, and, in fact, we could all take more 
than the 5 minutes allotted for our statements simply to list 
them all. The bottom line is that Pakistan is home to probably 
the densest concentration of the most dangerous militant 
Islamist organizations in the world, and a number of those have 
been allowed to run fairly free within Pakistani territory for 
a variety of reasons.
    Al-Qaeda Central, it should be noted, has been whittled 
down substantially from the fairly sizeable number who fled to 
Pakistan in 2001 to a handful of core leadership, with their 
support, including bin Laden, most recently killed. The 
Pakistanis have cooperated with that, and the Pakistani 
cooperation has been essential to making that happen. We should 
note that and the sacrifices the Pakistanis have made.
    In addition to al-Qaeda, the Lashkar-e-Taiba, I think the 
Ranking Member mentioned, is an incredibly dangerous 
organization, and it is an organization that hysterically--
historically, Freudian slip--we have tended to underestimate 
because it has been seen traditionally as a Kashmiri separatist 
movement and something that is focused on the fight in Kashmir.
    The truth is it was never a Kashmiri separatist movement. 
It was always an Islamist militant movement sharing a common 
ideology with al-Qaeda, and in some cases a common fraternity 
with al-Qaeda. It chose to focus on Kashmir when that seemed 
appropriate, but it has always harbored larger ambitions than 
that, including ambitions that would set the entire 
subcontinent on fire if carried out, which they nearly did, and 
ambitions to strike us directly as well.
    I think the threat from Lashkar-e-Taiba is extremely 
significant. I think, unfortunately, although the Pakistanis 
periodically arrest or house arrest or detain senior members of 
Lashkar-e-Taiba, fundamentally Pakistan has taken no real 
action against this group that has had significance, and that 
is a matter of concern.
    The Tehrik-e Taliban-e Pakistan is another group where 
nuanced understanding is essential because the TTP was formed 
to oppose Pakistan. The TTP was formed initially to serve as an 
umbrella organization for groups that opposed Musharraf's 
complicity with us in fighting against Islamists. I have 
details in my testimony about how the TTP has broken down into 
northern and southern groups that are more or less anti-
Pakistani.
    But there is a group of the TTP that has now focused in 
Waziristan and Orakzai agencies that goes beyond the simple 
hatred of Pakistan and actually seems to be willing potentially 
to be refocused on us, including most notably with the Times 
Square attack. That is a group that we have to be very 
concerned about. It is ironic the Pakistanis have shed quite a 
lot of blood fighting TTP, and, in fact, have driven it out of 
its most significant safe havens in South Waziristan, and are 
now fighting it in Bajaur and Mohmand agency with also 
significant loss of blood and effort. However, it is not clear 
that the Pakistanis will fight to eliminate that group, and it 
is also not clear that that group--the Pakistani operations 
will eliminate the threat to the United States from that group.
    There are a number of other organizations which I don't 
need to mention, because this panel of experts will certainly 
bring them up. So let me just close quickly by framing a policy 
problem--framing the policy problem, but not offering you a 
recommendation, and apologies for that.
    Three things are going to have to happen in Pakistan, in my 
view, before Pakistan is really able to get a handle on the 
challenge of militant Islamism in ways that secure its own 
stability from that threat and in ways that ensure our own 
security. First, Pakistan's ruling elite will have to come to a 
consensus that supporting some militant Islamist groups as 
proxies either in Afghanistan or in India is a failing 
strategy. This is where I think the importance of carrying 
through on the comprehensive counterinsurgency campaign General 
McChrystal began and General Petraeus is carrying on is so 
essential. We must demonstrate to them that this is not going 
to succeed.
    Second, they will have to come to a consensus that all 
militant Islamists pose a threat to Pakistan, and that none are 
at the end of the day able to be controlled by the state and 
used reliably and safely as proxies.
    Third, and this will probably be most difficult, they will 
have to come to a consensus about the need to conduct what will 
be long, very bloody, expensive, and difficult operations 
against a number of these organizations that are rather deeply 
rooted in Pakistani society and that go beyond the FATA into 
the Punjab, into Sind, into the Pakistani heartland.
    I believe that U.S. policy can directly affect the first of 
those things by making it clear to Pakistan that its proxies in 
Afghanistan will fail, and I think a strategy as some are 
advocating now of negotiating with the Taliban, of trying to 
wrap this thing up, is the worst thing we could possibly do 
from the standpoint of long-term stability in the region and 
the well-being of Pakistan, because it will merely reinforce 
the notion that fighting by proxy is a successful strategy.
    As for the others, we will have to develop a complicated 
and nuanced strategy for influencing Pakistan to develop these 
consensus after or in tandem with our efforts to show them that 
proxy warfare will not succeed.
    Thank you for the opportunity to testify.
    [The statement of Mr. Kagan follows:]
                Prepared Statement of Frederick W. Kagan
                              May 5, 2011
    The death of Osama bin Laden is highly unlikely to mark a turning 
point in the conflict between the United States and its allies on the 
one hand and militant Islamism epitomized by al-Qaeda on the other. 
President Obama deserves much praise for ordering the operation to get 
bin Laden, and the brave Americans who carried that operation out so 
skillfully deserve the thanks of a grateful Nation. But al-Qaeda 
itself, to say nothing of the numerous franchises and affiliated 
movements sharing common goals with it, will not be defeated by the 
death of a single leader, even its founder and figurehead. Nor is it 
clear that its operational capabilities even in Pakistan will be 
seriously degraded with bin Laden's passing--available information 
suggests that he abandoned day-to-day operational control over the 
moment long ago, and the organization has survived the deaths of many 
senior leaders more actively involved in its activities. There is cause 
for celebration in the death of a deeply evil man with much blood on 
his hands and more innocent deaths in his mind, but no cause to waver 
in our determination to press forward in this conflict against a 
determined foe.
    Public speculation about the complicity of the Pakistani government 
or security services either in harboring bin Laden or in supporting the 
U.S. operation that killed him is idle. Policy-makers and strategists 
would do much better to focus on the demonstrable facts about the 
threat militant Islamists based in Pakistan pose to Pakistan itself, 
its neighbors, our forces, and our homeland.
    Those facts are distressing enough. With bin Laden dead, al-Qaeda's 
leadership in Pakistan remains robust and significant. Dr. Ayman al 
Zawahiri, an Egyptian with ties (both friendly and hostile) with the 
Muslim Brotherhood, is a more gifted theorist and better writer than 
bin Laden ever was, although far less rhetorically effective and 
unlikely to be an inspirational leader. Abu Yahya al Libi, a Libyan as 
his honorific denotes, is a skilled and determined operator. Zawahiri 
is, in fact, potentially very dangerous over the long term as a 
strategist. In the early years of the Iraq war, he strenuously objected 
to the efforts of al-Qaeda in Iraq leader Abu Musab al Zarqawi to 
ignite sectarian conflict in Iraq in order to fuel the Sunni 
opposition. Zarqawi launched a terror campaign against Iraq's Shi'a 
majority in a deliberate effort to incite reprisal attacks against 
Iraqi Sunnis, hoping thereby to convince the Sunnis that al-Qaeda was 
their necessary champion. Zawahiri opposed that approach, arguing that 
their Islamist agenda was best served by focusing first on fighting the 
infidels together with the Shi'a, however impure their religion was in 
his view. In the short term, Zarqawi's policy prevailed--he did incite 
vicious sectarian reprisals against the Sunni that did for a time 
create support for al-Qaeda in Iraq. But his terrorism went too far. By 
2006, al-Qaeda in Iraq was alienating Sunnis almost as rapidly as 
Shi'a, and the al-Qaeda pressure on them combined with the pressure 
from the surge of troops and change in strategy in 2007 persuaded 
Iraq's Sunnis to give up the fight altogether. Zawahiri was shown there 
to be the shrewder strategist, giving us good cause for concern about a 
movement of which he is the leader. It is also noteworthy that the 
change in leadership in al-Qaeda will result in the replacement of the 
Saudi bin Laden, whose roots and essence were in the Arabian Peninsula, 
with an Egyptian and a Libyan. Will that change result in a refocusing 
of the al-Qaeda effort toward North Africa, more than would have 
occurred naturally? We shall see, but the prospect is worrying given 
the stalemate in Libya and the precariousness of Egypt. Nevertheless, 
bin Laden was a charismatic figure and a romantic figure in the eyes of 
many militant Islamists--the wealthy Saudi who gave up his luxurious 
life for jihad (although the location of his death undermines that 
story considerably). It will be a blow to Islamist morale and set off a 
leadership struggle within the movement. It is thus significant, even 
though it is not likely to prove decisive.
    Al-Qaeda is not, unfortunately, the only Islamist group in Pakistan 
with regional or global aims. The largest and best organized such 
organization, rather, is the Lashkar-e Tayyiba--Army of the Pure, which 
is responsible most recently for the 2008 Mumbai attacks. LeT has deep 
roots in Kashmir and has historically focused its attentions on India. 
In that guise, it is more than dangerous enough, since its atrocities 
brought two nuclear powers close to war a few years ago and could 
readily do so again. But LeT is not a Kashmiri organization. Its 
ideology is pan-Islamist rather than Kashmiri nationalist, and its 
headquarters are in Punjab, near Lahore, rather than in Kashmir. LeT 
has entwined itself with the Pakistani military establishment and 
state. It provides foot soldiers and agents provocateurs for raids on 
Kashmir or in India. In the form of various charitable organizations it 
has organized relief for victims of the massive floods in Pakistan, 
runs schools (madrassas), and provides rudimentary shari'a justice in 
backward and lawless areas. It has also been active, although in a much 
more limited form, supporting Taliban insurgents fighting U.S. and 
coalition forces in Afghanistan. LeT agents have attacked the U.S. 
Embassy in Bangladesh. LeT poses an enormous challenge to any Pakistani 
leader who wanted to constrain it, let alone shut it down. Its 
pervasiveness throughout Pakistan gives it the potential to conduct 
terrorist and even guerrilla attacks even in the heartlands of Punjab 
and Sindh. Its wealth and organization give it a high degree of 
autonomy from any financial support it might receive from elements of 
the ISI. It is, thus, a terrorist organization with a broad and deep 
base of support, significant wealth, and an Islamist ideology not very 
different from al-Qaeda's--and the prospects of the Pakistani state 
taking it on any time soon approach zero.
    Pakistan is also home to the Tehrik-e Taliban-e Pakistan (TTP), an 
anomalous organization determined to fight someone but possibly willing 
to negotiate about whom. The TTP was formed as an umbrella organization 
for a number of militant Islamist groups that began fighting Pakistan 
when President General Pervez Musharraf declared his support for the 
U.S. War on Terror and fight in Afghanistan. It has historically had 
two more or less distinct centers--one in Waziristan, particularly in 
South Waziristan, and the other in the northern part of the Federally 
Administered Tribal Areas (FATA), especially Mohmand and Bajaur 
agencies. It was that northern branch, including the sub-group known as 
Tehrik-e Nafaz-e Shariat-e Mohammadi (TNSM), that pushed west into Dir 
and ultimately into Swat, thereby goading Kayani into a series of 
attacks that have driven the group back to its mountain bases in 
Mohmand and Bajaur (where Pakistani military operations are on-going as 
we speak). The TNSM grouping has proven reliably hostile to Islamabad, 
and the Pakistani military has shown little hesitation to attack it. 
The Waziristan sub-group, however, seems more amenable to negotiation, 
at least after a major Pakistani military operation in 2010 cleared it 
out of most of South Waziristan. It has since dispersed somewhat to 
bases in Orakzai, Khyber, and North Waziristan, although some TTP 
fighters appear to be re-infiltrating South Waziristan as well. The TTP 
fighters in North Waziristan are part of a melange of tribal and 
Islamist groups that includes al-Qaeda, Maulvi Nazir and Gul Bahadur's 
tribesmen, the Haqqani Network, and the small but vicious networks of 
Uzbek militants that have made Pakistan their home for many years. 
Those groups are generally more interested in fighting the United 
States in Afghanistan than in fighting Pakistan, and the pressures on 
the TTP there to join them in the jihad against the infidels across the 
Durand Line before worrying about Islamabad are greater than in the 
northern FATA. The TTP claimed responsibility for the failed attempt to 
detonate a car bomb in Times Square and has repeated its determination 
to carry out attacks against the United States.
    North Waziristan is the base of the Haqqani Network, a group of 
Islamist fighters formed during the anti-Soviet war under the 
leadership of Jalaluddin Haqqani, a legendary mujahid. The Haqqani 
Network is now run by his sons, Sirajuddin and Badruddin, and extended 
family as Jalaluddin has gotten old and infirm. With the passage of 
leadership from generation to generation, the group's aims and methods 
have also evolved. The Haqqani Network is now notorious for its 
spectacular attacks in and around Kabul and its willingness to kill 
Afghan civilians despite the formal prohibition against such killings 
by Taliban leader Mullah Mohammad Omar. Siraj also appears to be more 
interested in becoming a more significant player in the regional and 
global Islamist movement than his father, whose interests were mostly 
confined to his historic tribal lands in southeastern Afghanistan 
(especially the provinces of Khost, Paktia, and Paktika). Recent open-
source reporting suggests that the Haqqani Network is gaining greater 
access to routes of attack into Afghanistan, moreover. Reporting 
indicates that the ending of a long-standing feud between the militant 
Islamist groups and the Shi'a Turi tribe that inhabits strategic 
terrain in Kurram Agency, just north of North Waziristan, has given the 
Haqqanis access to the main routes leading to Parachinar and from there 
directly into eastern Khost, Paktia, and Logar Provinces--and the 
shorter road to Kabul. Some of the reporting suggests that the 
Pakistani military has abetted this ``resolution'' of the feud by 
pressuring the Turi so as to facilitate Haqqani movement into and 
through their areas.
    Pakistan is also home to the headquarters of Mullah Omar's branch 
of the Taliban insurgency in Quetta. This group sees itself as a 
government-in-exile, having ruled Afghanistan before 2001, and 
maintains shadow governors for almost every province and many districts 
in Afghanistan. It had maintained unquestioned safe-havens in 
Afghanistan's southern provinces, particularly Helmand and Kandahar, 
until the addition of forces and change of strategy ordered by 
President Obama and overseen first by General Stanley McChrystal and 
now by General David Petraeus, took those safe havens away. Another, 
smaller Afghan insurgent group known as the Hezb-e Islami Gulbuddin 
(HiG), also has its main bases in Pakistan.
    One could list a host of other groups that threaten Pakistan's 
internal cohesiveness and one--Jundallah--that conducts terrorist 
attacks in Iran from Pakistani territory, but it is not necessary to 
belabor the point. Pakistan is host to a large number of extremely 
dangerous militant Islamist organizations whose aims vary from simply 
destroying the Pakistani state to destroying the entire Western way of 
life. The threat from these groups in Pakistan is severe.
    The Pakistani state, police, and military have taken very limited 
steps against most of these groups. On the positive side, Pakistan has 
generally tolerated American military strikes against key leaders in 
the FATA and has likely cooperated in efforts against al-Qaeda that 
have reduced the size and capabilities of that group to a small core 
leadership with limited operational ability. The Pakistani military 
took dramatic and painful steps to protect its people from 
encroachments by the Islamists into Swat and then continued the drive 
to clear their bases in South Waziristan, Bajaur, and now Mohmand. The 
Pakistani Army and Frontier Corps have lost thousands of soldiers in 
these battles, and thousands of Pakistani civilians have suffered and 
died at the hands of Islamist militants and during these operations. 
The success of those efforts remains unclear in some areas, but the 
overall impact is not--TNSM and TTP have been driven out of Swat and 
are very much on the defensive in their traditional strongholds in the 
FATA, which remain under pressure. The scale of the efforts was great--
multiple Pakistani regular army divisions were involved, including some 
from the corps stationed along the Indian border that would be 
essential in an Indo-Pakistan conflict, the deployment of which to 
fight in Pashtun lands indicates the seriousness with which the 
Pakistani military leadership took that particular threat. The 
Pakistani military and police have also operated against Baluchi 
separatist fighters and against some of the worst sectarian groups in 
Karachi and elsewhere. We should not diminish or dismiss the efforts or 
the losses Pakistan has made and taken in these actions simply because 
Islamabad has focused on the groups that threaten Pakistan itself 
rather than on those that threaten its neighbors or us.
    It is a fact, however, that Pakistan has taken no meaningful action 
against LeT, the Haqqani Network, HiG, or Mullah Omar. Pakistan's XII 
Corps headquarters are in Quetta, near Mullah Omar's primary bases, but 
have conducted no operations against his group. An entire Pakistani 
regular division is stationed in North Waziristan, near the Haqqani 
headquarters in Miram Shah, and has conducted no operations against 
that group. Musharraf formally outlawed LeT, but did not dismantle the 
group and, although LeT leaders have periodically been jailed or placed 
under house arrest, they have also been periodically released with no 
further action taken against them. LeT bases and madrassas are obvious 
and well-known, as are some of the Haqqani madrassas. Pakistan has not 
shut them down. It is not even necessary to discuss the accusations of 
Pakistani support for the Taliban, the Haqqanis, or LeT to see that 
Pakistan's performance against militant Islamist groups to date has 
been uneven, inconsistent, and inadequate.
    That observation based on cold and incontrovertible fact brings 
with it no obvious short-term policy solution, however. These 
conditions have persisted when the United States gave aid to Pakistan 
generously and when the United States withheld all aid. They have 
persisted during periods of greatest tension between Islamabad and 
Delhi and during periods of relative detente. They have persisted when 
civilians nominally or actually ruled the country and when the military 
has done so. Three things will have to occur, in all likelihood, before 
these conditions dissipate. First, Pakistan's ruling elite will have to 
come to the consensus that supporting some militant Islamists as 
proxies in Afghanistan and Kashmir is a failed strategy. Second, they 
will have to agree that all militant Islamists pose a threat to 
Pakistan's survival and well-being and are, at the end of the day, 
beyond the ability of the state and even the army to control as 
proxies. Third, they will have to make the hard decisions not only to 
act against groups that can cause them great pain, but also to seek and 
accept the assistance of the United States and other would-be allies in 
an internal struggle that is likely to be long, expensive, and bloody. 
Pakistani long-term stability and even state viability rests on its 
leaders making these decisions, but the scale of the challenge they 
face in carrying through on them would make any policy-maker blanch.
    Of these things, the United States can only directly affect the 
first. The current American and NATO strategy in Afghanistan is 
designed to degrade the Afghan Taliban, the Haqqani Network, and HiG 
within Afghanistan and to demonstrate beyond question that those groups 
will be unable to direct the course of events in Afghanistan even after 
Western forces hand over security responsibilities to the Afghan 
government and are significantly reduced in number. Demonstrating that 
those groups will fail will compel anyone in Pakistan who believes 
supporting them as proxies to be a plausible strategy for securing 
Pakistan's interests to re-evaluate that approach fundamentally. The 
challenge for American strategy toward Pakistan will be finding ways to 
accompany progress against Islamist proxies in Afghanistan with efforts 
to help Pakistan's ruling elite come to consensus on the overall 
dangers that Islamist groups within Pakistan pose and on the need to 
accept the costs and risks of combating and defeating them within 
Pakistan itself. The worst thing we could do now would be to take bin 
Laden's death or the progress made to date in Afghanistan as an excuse 
to withdraw forces prematurely, thereby easing the pressure on militant 
Islamist groups in Afghanistan just as we would otherwise approach the 
point of maximum pressure on them and those who support them. Now is 
the time to reinforce success by exercising patience in Afghanistan and 
allowing the strategy designed to persuade everyone in Afghanistan and 
in Pakistan that the militant Islamists in Afghanistan will fail to 
continue to work.

    Mr. Meehan. Thank you, Dr. Kagan.
    Our next witness will be Dr. Seth Jones. The senior 
political scientist at the RAND Corporation has written 
extensively on Pakistan, Afghanistan, and U.S. 
counterinsurgency efforts in the region, and has spent years 
working with U.S. Special Operations Forces.
    Dr. Jones, you are now recognized to summarize your 
testimony, please.

  STATEMENT OF SETH G. JONES, SENIOR POLITICAL SCIENTIST, THE 
                        RAND CORPORATION

    Mr. Jones. Thank you, Mr. Chairman. Thank you, Chairman 
King, and thank you, Ranking Member. Thank you, all the Members 
of the committee, for having this hearing. It is very 
important, I think, to have a frank discussion of this issue, 
because it is one that risks American lives.
    Let me first start out by saying, as the Chairman noted 
earlier, I recently left the U.S. Special Operations Command, 
working out the Pentagon, and before that Special Operations 
Forces in Afghanistan, and would like to thank those colleagues 
that participated in the raid against Osama bin Laden both for 
their bravery and for their patriotism. I had the pleasure of 
working with some of them and salute what they have done for 
the Nation.
    Let me begin by focusing on what I consider a very 
important question that the United States now faces. Now, I 
will come back to the Pakistan one in a second, but the 
question is now that Osama bin Laden is dead, how will the 
nature of the threat emanating from Pakistan evolve, the threat 
to the U.S. homeland? This is, again, one that threatens 
American lives, so setting aside for the purposes of this 
hearing Yemen, Somalia, and other areas, which are, of course, 
important, I will focus my comments on this.
    The way I see this trending, and we have already seen 
movement in this direction, is probably slightly more 
decentralized and diffuse threat facing the U.S. homeland from 
Pakistan. This has, in my view, enormous implications for how 
to think about and counter these efforts.
    There remains probably five--I would characterize them five 
tiers to monitor. One is the central al-Qaeda that continues to 
exist in Pakistan. So we have questions certainly now about bin 
Laden and his hideout. Similar questions one can also ask about 
al-Qaeda's No. 2, possibly now No. 1. Where is Ayman al-
Zawahiri, and how much knowledge does the Pakistan government 
have of his whereabouts? We know historically he has been 
targeted by the United States in Pakistan in 2006, in January. 
He was targeted by U.S. forces in the Bajaur agency. That 
targeted effort was not successful, but I think certainly there 
are similar questions.
    There are also affiliated groups. We have seen the threat 
to the homeland from groups like al-Qaeda in the Arabian 
Peninsula in Yemen.
    Third, we have allied groups of al-Qaeda, and certainly in 
Pakistan we see a threat to the U.S. homeland from several of 
them, including TTP and the Lashkar-e-Taiba, both of which have 
been mentioned here, which, in my personal view--which will 
potentially pose a more serious threat to the U.S. homeland 
over the next several years.
    Fourth, we have allied networks, some of which have been 
involved in serious attacks overseas, including the London 
attacks in 2005; and then finally, as we have seen at Fort Dix 
and other areas, simply inspired attackers.
    In my view, as we have seen, and as the Ranking Member 
mentioned earlier, we have come very close, I would say lucky, 
from being attacked by terrorists who trained in Pakistan, the 
Shahzad case being certainly one example, Zazi being another.
    I think the threat from Pakistan is extremely serious right 
now. We see active plots from individuals like Ilyas Kashmiri, 
based in Pakistan, against targets in India, in Europe, and 
also potentially against the U.S. homeland.
    We have al-Qaeda Americans in Pakistan right now, Adam 
Gadahn from Riverside, California; Shukrijumah, Adam el 
Shukrijumah, who, among other places, lived in Florida, 
operating out of Pakistan right now. So I would say we have a 
very serious and vested interest in continuing to capture or 
kill these threats to the homeland, including from Americans.
    I would say, as we look down the line at the issue of 
Pakistan, this could move in one of two directions. One would 
be an unfortunate reality. The relationship that the United 
States had in the 1990s, after the Pressler amendments were 
enacted, where the relationship was virtually nonexistent in a 
serious strategic way. The other is where the relationship 
moved after the September 11 attacks, a more productive 
relationship that captured Khalid Sheikh Mohammed, Abu 
Zubaydah, Ramsi bin al Sheeb, Abu Faraj al-Libbi, the capture 
of serious al-Qaeda members.
    In my personal view, Pakistan has a very serious series of 
options right now. We have the bulk of al-Qaeda central 
leadership operating in Pakistan. Will it help us capture the 
rest of this organization? Only facts on the ground will be 
able to tell.
    The last thing I will just note very briefly is one 
particular concern I would have, and I continue to have, is 
that the United States has identified Pakistan government 
relations with two groups that are of concern. One is the 
Haqqani network. The other is Lashkar-e-Taiba. Both of those 
groups, I would add, have direct, senior-level relationships 
with al-Qaeda. That is unacceptable for the United States, in 
my personal view, and must change for that relationship to 
become more productive.
    Finally, this is a long war. As Winston Churchill observed 
over a century ago during the British struggles in the 
Northwest Frontier, time in this area is measured in decades, 
not months or years. But I would say based on the threat 
streams coming out of Pakistan, we do not have much time.
    Thank you.
    [The statement of Mr. Jones follows:]
                  Prepared Statement of Seth G. Jones
                              May 3, 2011
    Even before the killing of Osama bin Laden, with the growing 
instability across the Arab world, it had become de rigueur to argue 
that the primary al-Qaeda threat now comes from the Persian Gulf or 
North Africa. While these regions certainly present a threat to Western 
security, al-Qaeda's primary command and control structure remains 
situated in Pakistan. Al-Qaeda and allied groups continue to present a 
grave threat from this region by providing strategic guidance, 
overseeing or encouraging terrorist operations, managing a robust 
propaganda campaign, conducting training, and collecting and 
distributing financial assistance. As demonstrated over the past year, 
for example, key operatives such as Ilyas Kashmiri have been involved 
in plots in Europe and the United States. On May 1, 2010, Faisal 
Shahzad, who was trained in Pakistan, packed his Nissan Pathfinder with 
explosives and drove into Times Square in New York City on a congested 
Saturday night. Only fortune intervened, since the improvised explosive 
device malfunctioned.
    It may now be tempting to focus on terrorist threats to the United 
States only from Libya, Yemen, Somalia, Egypt, and other countries in 
the Arab world. But this would be a dangerous mistake. The United 
States continues to face a serious threat to the homeland from al-Qaeda 
and several allied groups based in Pakistan, including Lashkar-e 
Tayyiba and Tehrik-e-Taliban Pakistan. What has likely changed, 
however, is the nature of the threat from Pakistan, which will likely 
become more decentralized and diffuse.
                 i. al-qaeda's organizational structure
    A current understanding of the threat to the U.S. homeland from 
Pakistan requires a nuanced appreciation of al-Qaeda and its allies. 
With a leadership structure still in Pakistan, al-Qaeda is a notably 
different organization than a decade ago and can perhaps best be 
described as a ``complex adaptive system.''\1\ The term refers to 
systems that are diverse (composing multiple networks) and adaptive 
(possessing the capacity to evolve and learn from experience). One key 
element of complex adaptive systems is they include a series of 
networks, which are often dispersed and small. Different nodes can 
communicate and conduct their campaigns with some coordination. As 
terrorist expert Bruce Hoffman argued, al-Qaeda is ``in the main 
flatter, more linear, and more organizationally networked'' than it has 
previously been.\2\ The killing of bin Laden may accelerate this 
decentralization.
---------------------------------------------------------------------------
    \1\ See, for example, Murray Gell-Mann, The Quark and the Jaguar 
(New York: Henry Holt and Company, 1994); John Holland, Hidden Order 
(Reading, MA: Addison-Wesley, 1995); Kevin Dooley, ``A Complex Adaptive 
Systems Model of Organization Change,'' Nonlinear Dynamics, Psychology, 
and Life Science, Vol. 1, No. 1, 1997, pp. 69-97.
    \2\ Bruce Hoffman, Inside Terrorism, Revised Edition (New York: 
Columbia University Press, 2006), p. 285.
---------------------------------------------------------------------------
    Al-Qaeda today can perhaps best be divided into five tiers: Central 
al-Qaeda, affiliated groups, allied groups, allied networks, and 
inspired individuals.\3\
---------------------------------------------------------------------------
    \3\ Hoffman, Inside Terrorism.
---------------------------------------------------------------------------
    First, central al-Qaeda includes the organization's leaders, who 
are based in Pakistan. Despite the death of key figures--such as Osama 
bin Laden, chief financial officer Shaykh Sa'aid al-Masri, and external 
operations chief Abu `Abd al-Rahman al-Najdi--several top leaders, 
including Ayman al-Zawahiri, continue to provide strategic-level 
guidance. Al-Qaeda's goals remain overthrowing regimes in the Middle 
East (the near enemy, or al-Adou al-Qareeb) to establish a pan-Islamic 
caliphate, and fighting the United States and its allies (the far 
enemy, or al-Adou al-Baeed) who support them. As demonstrated over the 
past year, Ilyas Kashmiri has been involved in thwarted plots to 
conduct Mumbai-style attacks in Europe and to target a newspaper in 
Copenhagen that published cartoons of the Prophet Muhammad. Abu Yahya 
al-Libi continues to act as one of al-Qaeda's senior ideologues and 
religious figures. There are also a range of Americans in central al-
Qaeda, including Adam Gadahn and Adnan El Shukrijumah (aka Jafar al-
Tayyar).
    The second tier includes a range of affiliated groups that have 
become formal branches of al-Qaeda. They benefit from central al-
Qaeda's financial assistance and inspiration, and receive at least some 
guidance, training, arms, money, or other support. They often add ``al-
Qaeda'' to their name to identify themselves as affiliated 
organizations, such as al-Qaeda in Iraq, al-Qaeda in the Arabian 
Peninsula, al-Qaeda in the Islamic Maghreb, and al-Qaeda East Africa. 
Al-Qaeda's senior leadership, including Ayman al-Zawahiri, retain a 
degree of oversight and, when necessary, may discipline members of 
these groups for failing to follow guidance.
    The third involves allied groups that have established a direct 
relationship with al-Qaeda, but have not become formal members. This 
arrangement allows the groups to remain independent and pursue their 
own goals, but to work with al-Qaeda for specific operations or 
training purposes when their interests converge. In Pakistan, one 
example is Tehrik-e-Taliban Pakistan, whose interests remain largely 
parochial in South Asia, though they have been involved in attacks 
overseas--including the U.S. homeland. Another is Lashkar-e-Tayyiba, 
which is based in Pakistan and has historically operated in India and 
Kashmir, though it has expanded its interests to include Afghanistan, 
Europe, and perhaps the United States. Outside of Pakistan, there a 
range of other allied groups, such as al Shabaab, which operates in 
Somalia but has a relationship with diaspora communities across the 
world, including in the United States.
    The fourth tier involves allied networks--small, dispersed groups 
of adherents who enjoy some direct connection with al-Qaeda. These 
groups are not large insurgent organizations, but often self-organized 
small networks that congregate, radicalize, and plan attacks. In some 
cases, they comprise individuals who had prior terrorism experience in 
Algeria, the Balkans, Chechnya, Afghanistan, or perhaps Iraq. In other 
cases, they include individuals that have traveled to camps in 
Afghanistan or Pakistan for training, as with Mohammed Siddique Khan 
and the British Muslims responsible for the successful July 2005 London 
bombing.
    Finally, the inspired individuals include those with no direct 
contact to al-Qaeda central, but who are inspired by the al-Qaeda cause 
and outraged by perceived oppression in Iraq, Afghanistan, Chechnya, 
and Palestinian territory. They tend to be motivated by a hatred toward 
the West and its allied regimes in the Middle East. Without direct 
support, these networks tend to be amateurish, though they can 
occasionally be lethal. In November 2004, a member of the Hofstad Group 
in the Netherlands, Mohammed Bouyeri, murdered the Dutch filmmaker Theo 
Van Gogh in Amsterdam. But many others, such as the cell led by Russell 
Defreitas that plotted to attack New York City's John F. Kennedy 
International Airport in 2007 (code named ``chicken farm''), were 
rudimentary and would have been difficult to execute.
    Taken together, al-Qaeda has transformed itself by 2011 into a more 
diffuse--and more global--terror network. While Pakistan is its home 
base, it has a growing array of allied groups and networks on multiple 
continents. In fact, the death of Osama bin Laden suggests that the 
main threat to the U.S. homeland from Pakistan is perhaps more diffuse 
than at any time since September 2001, especially from allied groups 
and networks.
                 ii. debating the threat from pakistan
    There has been growing skepticism about the threat to the U.S. 
homeland from Pakistan. In his 2011 testimony before the U.S. House of 
Representatives Homeland Security Committee, Michael Leiter, director 
of the U.S. National Counterterrorism Center, remarked that al-Qaeda in 
the Arabian Peninsula is ``probably the most significant risk to the 
U.S. homeland.''\4\ Others have argued that al-Qaeda has a nearly 
endless supply of sanctuaries in weak states, such as Yemen, Somalia, 
Djibouti, Sudan, and even Iraq. ``Many of these countries,'' notes 
Stephen Biddle from the Council on Foreign Relations, ``could offer al-
Qaeda better havens than Afghanistan ever did.''\5\
---------------------------------------------------------------------------
    \4\ Testimony of Michael Leiter, Director of the National 
Counterterrorism Center (NCTC), Hearing of the House Homeland Security 
Committee, February 9, 2011.
    \5\ Stephen Biddle, ``Is It Worth It? The Difficult Case for War in 
Afghanistan,'' The American Interest, July-August 2009.
---------------------------------------------------------------------------
    While this argument seems reasonable, and al-Qaeda in the Arabian 
Peninsula certainly poses a clear threat to the U.S. homeland, the 
evidence suggests that al-Qaeda leaders retain an unparalleled 
relationship with local networks in the Afghanistan-Pakistan frontier. 
Ayman al-Zawahiri and several senior al-Qaeda leaders have a 30-year, 
unique history of trust and collaboration with the Pashtun militant 
networks located in Pakistan and Afghanistan. These relationships are 
deeper and more robust than the comparatively nascent, tenuous, and 
fluid relationships that al-Qaeda has developed with al Shabaab in 
Somalia, local tribes in Yemen, or other areas. Indeed, al-Qaeda has 
become embedded in multiple networks that operate on both sides of the 
Afghanistan-Pakistan border. Key groups include the Tehrik-e-Taliban 
Pakistan, Haqqani Network, and Lashkar-e Tayyiba. Al-Qaeda has 
effectively established a foothold with several tribes or sub-tribes in 
the region, such as some Ahmadzai Wazirs, Mehsuds, Utmanzai Wazirs, 
Mohmands, Salarzais, and Zadrans. The secret to al-Qaeda's staying 
power, it turns out, has been its success in cultivating supportive 
networks in an area generally inhospitable to outsiders.
    Al-Qaeda provides several types of assistance to Pakistan militant 
groups in return for sanctuary. One is coordination. It has helped 
establish shuras (councils) to coordinate strategic priorities, 
operational campaigns, and tactics against Western allied forces. In 
addition, al-Qaeda operatives have been involved in planning military 
operations, such as launching suicide attacks, emplacing improvised 
explosive devices, and helping conduct ambushes and raids. It also 
helps run training camps for militants, which cover the recruitment and 
preparation of suicide bombers, intelligence, media and propaganda 
efforts, bomb-making, and religious indoctrination. Al-Qaeda provides 
some financial aid to militant groups, though it appears to be a small 
percentage of their total aid. Finally, it has cooperated with Pakistan 
militant groups to improve and coordinate propaganda efforts, including 
through the use of DVDs, CDs, jihadi websites, and other media forums.
    Some pundits have argued that al-Qaeda operatives primarily reside 
in Pakistan, not Afghanistan. But the 1,519-mile border, drawn up in 
1893 by Sir Henry Mortimer Durand, the British Foreign Secretary of 
India, is largely irrelevant. Locals regularly cross the border to 
trade, pray at mosques, visit relatives, and--in some cases--target 
NATO and coalition forces. Indeed, al-Qaeda migration patterns since 
the anti-Soviet jihad show frequent movement in both directions. Osama 
bin Laden established al-Qaeda in Peshawar, Pakistan in 1988, though he 
and other Arab fighters crossed the border into Afghanistan regularly 
to fight Soviet forces and support the mujahedeen. When bin Laden 
returned to the area in 1996 from Sudan, he settled near Jalalabad in 
eastern Afghanistan and later moved south to Kandahar Province. After 
the overthrow of the Taliban regime, however, most of the al-Qaeda 
leadership moved back to Pakistan, though some settled in neighboring 
Iran.
    Other skeptics contend that informal, homegrown networks inspired 
by al-Qaeda have become the most serious threat to the West.\6\ Ayman 
al-Zawahiri and central al-Qaeda have become extraneous, according to 
this argument. Skeptics contend that impressionable young Muslims can 
radicalize through the internet or interactions with local extremist 
networks. They don't need a headquarters, the argument goes. These 
skeptics contend that the threat to the West, therefore, comes largely 
from a ``leaderless jihad'' in Europe, Asia, the Middle East, and North 
America rather than a relationship with central al-Qaeda located in 
Pakistan. As discussed in the next section, however, there is sparse 
evidence to support this argument.
---------------------------------------------------------------------------
    \6\ Mark Sagemen, Leaderless Jihad: Terror Networks in the Twenty-
First Century (Philadelphia: University of Pennsylvania Press, 2008), 
pp. 133, 140.
---------------------------------------------------------------------------
             iii. the terrorist threat to the u.s. homeland
    Many of the recent terrorist threats to the U.S. homeland have been 
connected to al-Qaeda and its allies in Pakistan, though a few have 
been tied to such areas as Yemen. Sparsely few serious attacks have 
come from purely homegrown terrorists. Central al-Qaeda, headquartered 
in Pakistan, has long focused on attacking the U.S. homeland.
    More recently, however, the United States has faced a growing 
threat from allied groups and networks operating in Pakistan. In 
September 2009, for example, Najibullah Zazi was arrested for planning 
attacks on the New York City subway. Najibullah Zazi pleaded guilty in 
U.S. District Court to ``conspiracy to use weapons of mass 
destruction'' and ``providing material support for a foreign terrorist 
organization'' based in Pakistan.\7\ Several al-Qaeda operatives, 
including Saleh al-Somali and Adnan Gulshair el Shukrijumah, were 
involved in the plot. According to U.S. Government documents, Zazi's 
travels to Pakistan and his contacts with individuals there were 
pivotal in helping him build an improvised explosive device using 
triacetone triperoxide, the same explosive used effectively in the 2005 
London subway bombings. In October 2009, Chicago-based David Coleman 
Headley (aka Daood Sayed Gilani) was arrested for involvement in 
terrorist activity. He is a Pakistani-American who had cooperated with 
Lashkar-e Tayyiba and senior al-Qaeda leaders to conduct a series of 
attacks, including the November 2008 Mumbai attack and a plot to attack 
a newspaper in Copenhagen that had published a cartoon of the Prophet 
Muhammad. His base in Chicago made him ideally suited for a future 
attack in the U.S. homeland.
---------------------------------------------------------------------------
    \7\ U.S. District Court, Eastern District of New York, United 
States of America Against Najibullah Zazi, 09 CR 663(S-1), February 22, 
2010.
---------------------------------------------------------------------------
    In December 2009, five Americans from Alexandria, Virginia--Ahmed 
Abdullah Minni, Umar Farooq, Aman Hassan Yemer, Waqar Hussain Khan, and 
Ramy Zamzam--were arrested in Pakistan and later convicted on terrorism 
charges. Better known as ``Five Guys,'' a reference to the hamburger 
chain close to their homes along Route One in Alexandria, they 
radicalized in the United States and went to Pakistan for training and 
operational guidance. In May 2010, Faisal Shahzad attempted to detonate 
an improvised explosive device in Times Square in New York City after 
being trained by bomb-makers from Tehrik-e-Taliban Pakistan.
    Europe has faced similar threats. The 2004 Madrid attacks involved 
senior al-Qaeda leaders, including Amer Azizi.\8\ The 2005 London 
attacks and 2006 transatlantic airlines plot involved senior al-Qaeda 
operatives in Pakistan, who were involved in strategic, operational, 
and even tactical support. Jonathan Evans, the Director General of MI5, 
the United Kingdom's domestic intelligence agency, recently 
acknowledged that at least half of the country's priority plots 
continue to be linked to ``al-Qaeda in the tribal areas of Pakistan, 
where al-Qaeda senior leadership is still based.''\9\ Over the last 
decade, there have been a laundry list of plots and attacks in the 
United Kingdom, Germany, Spain, Netherlands, France, India, and other 
countries with links to al-Qaeda and other terrorist groups with a 
foothold in Pakistan.
---------------------------------------------------------------------------
    \8\ Fernando Reinares, ``The Madrid Bombings and Global Jihadism,'' 
Survival, Vol. 52, No. 2, April-May 2010, pp. 83-104.
    \9\ Jonathan Evans, ``The Threat to National Security,'' Address at 
the Worshipful Company of Security Professionals by the Director 
General of the Security Service, September 16, 2010.
---------------------------------------------------------------------------
                       iv. countering the threat
    While the al-Qaeda threat from Pakistan has remained severe, the 
United States has struggled to pursue an effective counterterrorism 
strategy. In 2001, less than 100 CIA and U.S. Special Operations 
personnel, supported by punishing U.S. airpower, toppled the Taliban 
regime and unhinged al-Qaeda from Afghanistan.
    In examining 648 terrorist groups, I found that most groups end in 
one of two ways. Either they join the political process, or else small 
networks of clandestine intelligence and security forces arrest or kill 
the leadership. Large-scale, conventional military forces have rarely 
been the primary reason for the end of terrorist groups, and few groups 
achieve victory.\10\ Military forces may help penetrate and garrison an 
area frequented by terrorist groups and, if well sustained, may 
temporarily reduce terrorist activity. But once the situation in an 
area becomes untenable for terrorists, they will transfer their 
activity to another location. Terrorists groups generally fight wars of 
the weak. They do not put large, organized forces into the field, 
except when they engage in insurgencies. This means that military 
forces can rarely engage terrorist groups using what most armies are 
trained in: Conventional tactics, techniques, and procedures. In some 
cases, such as when terrorist groups ally with large and well-equipped 
insurgent groups, conventional forces may be more apropos.
---------------------------------------------------------------------------
    \10\ Seth G. Jones and Martin Libicki, How Terrorist Groups End: 
Lessons for Countering Al Qa'ida (Santa Monica, CA: RAND 2008). 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    By 2011, however, U.S. policymakers seemed to better understand the 
utility of clandestine efforts. The United States and Pakistan 
increased covert efforts against al-Qaeda, improving their intelligence 
collection capabilities and nearly tripling the number of drone strikes 
in Pakistan from 2009 levels. Recognizing the importance of al-Qaeda's 
local hosts, the United States and Pakistan stepped up efforts to 
recruit assets among rival sub-tribes and clans in the border areas.
    In Pakistan, there were a range of senior-level officials killed--
such as Osama bin Laden, chief financial officer Shaykh Sa'aid al-
Masri, and external operations chief Abu 'Abd al-Rahman al-Najdi--
through a combination of U.S. Special Operations and intelligence 
efforts. This left perhaps less than 300 al-Qaeda members in Pakistan, 
though there were larger numbers of foreign fighters and allied 
organizations. In late 2010, Ayman al-Zawahiri ordered al-Qaeda 
operatives to disperse into small groups in Afghanistan and Pakistan, 
away from the tribal areas, and cease most activities for a period of 
up to 1 year to ensure the organization's survival. In Afghanistan, 
intelligence and U.S. Special Operations activities disrupted al-Qaeda, 
which became less cohesive and more decentralized among a range of 
foreign fighters. Al-Qaeda retained a minimal presence in Afghanistan, 
with perhaps less than 100 full-time fighters at any one time. This 
estimate is larger if one counts al-Qaeda-allied foreign fighter 
networks operating in Afghanistan.
    What does this fragile progress mean? For starters, the number of 
al-Qaeda operatives in Afghanistan and Pakistan shrunk from 2001 
levels, where it was likely over 1,000 fighters. More importantly, 
however, Western efforts disrupted al-Qaeda's command and control, 
communications, morale, freedom of movement, and fund-raising 
activities. Central al-Qaeda was a weaker organization, though not 
defeated. The death of senior leaders also forced al-Qaeda to become 
increasingly reliant on couriers, hampered communication because of 
operational security concerns, delayed the planning cycle for 
operations, and exposed operations to interdiction.
                       v. conclusion: a long war
    The landscape along Pakistan's border with Afghanistan, where al-
Qaeda is largely headquartered, is strangely reminiscent of Frederick 
Remington or C.M. Russell's paintings of the American West. Gritty 
layers of dust sap the life from a parched landscape. With the 
exception of a few apple orchards, there is little agricultural 
activity because the soil is too poor. Several dirt roads snake through 
the area, but virtually none are paved. In this austere environment, 
central al-Qaeda has been disrupted. Its popularity has also declined.
                     figure 2: poll of al-qaeda\11\
---------------------------------------------------------------------------
    \11\ Pew Research Center, Obama More Popular Abroad Than at Home, 
Global Image of U.S. Continues to Benefit (Washington, DC: Pew Global 
Attitudes Project, June 2010).
---------------------------------------------------------------------------
    How much confidence do you have in Osama bin Laden to do the right 
thing regarding world affairs?

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Yet there are still several challenges. One is the absence of an 
effective campaign to counter al-Qaeda's extremist ideology. Public 
perceptions of al-Qaeda have plummeted. According to a 2010 public 
opinion poll published by the New America Foundation, more than three-
quarters of residents in Pakistan's Federally Administered Tribal Areas 
opposed the presence of al-Qaeda. A poll conducted by the Pew Research 
Center indicated that positive views of Osama bin Laden significantly 
declined across the Middle East and Asia between 2001 and 2010, 
including in Indonesia, Jordan, Pakistan, Turkey, Egypt, and Lebanon. 
In addition, there has been widespread opposition to al-Qaeda's 
ideology and tactics among conservative Islamic groups, especially al-
Qaeda's practice of killing civilians. Public opposition of al-Qaeda, 
especially from legitimate Muslim religious leaders, needs to be better 
encouraged and publicized.
    In addition, Pakistan has done a remarkable job against some 
militant groups in areas like Swat and northern parts of the Federally 
Administered Tribal Areas, where scores of Pakistan army, Frontier 
Corps, police, and intelligence units have died in combat. Yet 
Pakistan's continuing support to some militant groups, including 
Lashkar-e Tayyiba and the Haqqani Network, needs to end. Even more 
disturbing, both Lashkar-e Tayyiba and the Haqqani Network have a 
direct, senior-level relationship with some al-Qaeda leaders. 
Supporting militant groups has been deeply counter-productive to 
stability in South Asia--including in Pakistan--and has had second- and 
third-order effects that threaten the U.S. homeland. The struggle 
against al-Qaeda and allied networks operating from Pakistan remains a 
long one. As Winston Churchill observed over a century ago during the 
British struggles in the Northwest Frontier, time in this area is 
measured in decades, not months or years. It's a concept that doesn't 
always come easy to Westerners. Still, a failure to adequately deal 
with the terrorist threat in Pakistan will not only prolong this 
struggle, but it will severely undermine on-going U.S. efforts in 
Afghanistan, risk the further destabilization of a nuclear Pakistan, 
and ultimately threaten the U.S. homeland.

    Mr. Meehan. Thank you, Dr. Jones. I am very grateful for 
your testimony.
    Our next witness is Mr. Steven Tankel, a visiting fellow at 
the Carnegie Mellon Endowment for International Peace. Thank 
you, Mr. Tankel, and you are now recognized for your testimony, 
please.

   STATEMENT OF STEPHEN TANKEL, VISITING FELLOW, SOUTH ASIA 
    PROGRAM, THE CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Tankel. Thank you, Mr. Chairman, Ranking Member Speier, 
Chairman King and Members of the subcommittee, for inviting me 
here today. Others have spoken about some of the--what are the 
ramifications of Osama bin Laden's demise and the impact this 
will have on the state of the U.S. Pakistan-relationship, so I 
am going to keep the focus of my testimony on Lashkar-e-Taiba, 
the group I was asked to speak specifically about today, though 
I do want to concur with others about the importance of the 
U.S.-Pakistan relationship and the need to find ways to make 
that relationship work better than it is right now.
    LeT's continued existence has become a major contributor to 
tensions between United States and Pakistan, particularly since 
the 2008 Mumbai attacks. The group's position within Pakistan 
remains relatively secure for three reasons. First, that 
country is facing an insurgency, and LeT's policy remains to 
refrain from launching attacks against the state. The security 
establishment appears to be taking what amounts to a triage 
approach, focusing first on those groups launching attacks in 
Pakistan and avoiding any action that could draw LeT as an 
organization further into the insurgency. This is despite the 
fact that some members within LeT are currently contributing to 
the war in Pakistan.
    Second, the Pakistan Army and ISI have long considered LeT 
to be the country's most reliable proxy against India, and 
elements within those institutions still perceive it to provide 
utility in this regard.
    Third, LeT is more than just a militant group. It is also a 
missionary organization that places a strong emphasis on 
preaching and social welfare and hence has significant societal 
support and influence.
    My aim today is threefold: To detail briefly LeT's 
capabilities for threatening U.S. citizens at home or abroad, 
to assess the group's intent in this regard, and to highlight 
several courses of possible U.S. action.
    LeT boasts robust capabilities, as others have alluded to, 
that enable it to contribute to attacks against U.S. interests 
in the following ways. First, as a training provider, the group 
has a history of providing training to local as well as Western 
recruits. As collaboration with other outfits in Pakistan has 
increased, so, too, has cross training.
    Second, it is a gateway organization that Western would-be 
terrorists can use to access other outfits, including al-Qaeda.
    Third, it can act as a facilitator for terrorist attacks, 
providing logistical and financial support to other outfits via 
its transnational networks, which, conservatively speaking, 
stretch across South Asia, the Persian Gulf, and Europe.
    In addition to acting as part of a consortium, LeT is 
capable of a unilateral attack against U.S. or Western 
interests. That scenario is, however, less likely, and this 
brings us to the issue of LeT intent.
    The core LeT organization continues to prioritize India as 
its main enemy, and the group has never considered itself to be 
an al-Qaeda affiliate; however, it has also always been a pan-
Islamist group since its formation. Liberating Kashmir and then 
the Indian subcontinent is the first rather than the final step 
in a wider jihad for the group, and it has contributed to al-
Qaeda's fight against the United States and its allies since 9/
11. Operational collaboration between these groups has grown 
closer in recent years.
    According to interlocutors in Pakistan, the ISI continues 
to pressure LeT leaders to refrain from launching another 
terrorist spectacular in India as this could trigger a war or 
an attack against America, and this may reduce the chances of a 
unilateral LeT attack against the homeland, at least in the 
near term.
    However, the current threat to U.S. interests comes from a 
conglomeration of actors in Pakistan, al-Qaeda, TTP, LeT and 
others, and thus LeT does not need to take the lead role in an 
attack in order for its capabilities to be used against the 
U.S. homeland or American interests abroad. Furthermore, 
individuals or factions within LeT can utilize its domestic 
infrastructure, as well as transnational capabilities, to 
pursue their own operations without the leadership's consent.
    Because members who leave LeT do not necessarily cut ties 
with the group or may bring elements within it with them, the 
threat also comes from the Lashkar alumni network. Because LeT 
remains influenced by regional dynamics, I think it is worth 
considering briefly how bin Laden's death might reshape its 
environment.
    The Kashmir conflict, which is where it made its name, 
remains torpid, and it would be difficult for LeT to regenerate 
the insurgency there. Its members continue to integrate further 
into the Afghan insurgency, but unlike the Taliban, it doesn't 
have a major constituency in Afghanistan.
    Bin Laden's death could create space for a political 
solution, and, if so, LeT may find itself with an active open 
front for the first time in two decades. This will impact its 
behavior and group cohesion and may lead some to seek other 
opportunities, particularly terrorist attacks against India, 
Pakistan, or the United States; however, it might also provide 
an emphasis for others to demobilize.
    If I may, I have a few brief recommendations I would like 
to offer that are specific to LeT. That being said, fully 
dismantling the group must be a gradual process in order to 
avoid a backlash, and it will require a paradigm shift within 
the Army and the ISI, and thus one in India and Pakistan 
relations.
    What courses of action should the United States consider? 
First accelerate actions necessary for a global take down of 
LeT. Continue to pursue counterterrorism cooperation with and 
support to India and Bangladesh, and increase this cooperation 
with Nepal, Sri Lanka and the Maldives, where LeT networks are 
currently expanding. The United States must also push for 
greater cooperation and intelligence sharing vis-a-vis LeT from 
allies in the gulf.
    Second, with regard to Pakistan specifically, in the near 
term, continue to signal the severe repercussions that would 
result were LeT or elements within it to be involved in an 
attack upon American interests, and continue to press Pakistan 
for intelligence regarding LeT's international networks and to 
begin taking steps to degrade its training apparatus.
    Toward the medium term, increase the focus on building up 
Pakistan's counterterrorism capacity via civilian law 
enforcement and intelligence agencies. Finally, to prepare for 
the long term, push for designing a deradicalization, 
demobilization, a reintegration program, and explore the costs, 
benefits, and feasibility of doing so, perhaps by working with 
a third party such as Saudi Arabia.
    Now, I understand these recommendations do not offer 
immediate gratification, yet as the world witnessed Sunday 
night, persistence and preparation do pay off.
    Thank you for inviting me to testify here today. I look 
forward to your questions.
    [The statement of Mr. Tankel follows:]
                  Prepared Statement of Stephen Tankel
                              May 3, 2011
    Lashkar-e-Taiba (the Army of the Pure or LeT) is one of Pakistan's 
oldest and most powerful militant groups. India has been its primary 
enemy since the early 1990s and the group has never considered itself 
to be an al-Qaeda affiliate, but LeT did begin contributing to al-
Qaeda's global jihad against the United States and its allies after 9/
11. The spectacular nature of the 2008 Mumbai attacks and target 
selection suggested LeT continued to prioritize jihad against India, 
but was moving deeper into al-Qaeda's orbit. Despite repeated calls by 
a chorus of U.S. officials on Pakistan to take actions against the 
group in the wake of Mumbai, LeT's position remains relatively secure. 
There are several reasons. First, Pakistan is facing a serious 
insurgency and LeT remains one of the few militant outfits whose policy 
is to refrain from launching attacks against the state. The security 
establishment has taken a triage approach, determining that to avoid 
additional instability it must not take any action that could draw LeT 
further into the insurgency. Second, the Pakistan army and its powerful 
Inter-Services Intelligence Directorate (ISI) have long considered LeT 
to be the country's most reliable proxy against India and the group 
still provides utility in this regard. LeT also provides potential 
leverage at the negotiating table and so it is therefore unrealistic to 
assume support for the group will cease without a political payoff from 
India in return. As a result, the consensus among the Pakistani 
security establishment appears to be that, at least in the short term, 
taking steps to dismantle the group would chiefly benefit India, while 
Pakistan would be left to deal with the costs. Finally, LeT provides 
social services and relief aid via its above-ground wing, Jamaat-ul-
Dawa, and its activities in this sphere have led to a well of support 
among segments of the populace.
    To understand LeT and how it grew so powerful, one must recognize 
the two dualities that define it. The first is that it is a missionary 
and a militant organization that for most of its history has placed an 
equivalent emphasis on reshaping society at home (through preaching and 
social welfare) and to waging violent jihad abroad. The second is that 
its military activities are informed both by its pan-Islamist rationale 
for jihad and its role as a proxy for the Pakistani state. LeT was able 
to grow into a powerful and protected organization in Pakistan as a 
result of its ability to reconcile these dualities. Jihad against India 
to liberate Muslim land under perceived Hindu occupation aligned with 
LeT's ideological priorities and also with state interests. This 
enabled the group to become Pakistan's most reliable proxy, which 
brought with it substantial benefits including the support needed to 
construct a robust social welfare apparatus used for missionary and 
reformist purposes. However, this approach also necessitated trade-offs 
and compromises after 9/11, since preserving its position vis-a-vis the 
state sometimes forced the group to sublimate its pan-Islamist 
impulses. As the decade wore on, internal tensions increased over who 
LeT should be fighting against.
    India remains its primary enemy, but, as mentioned, the group 
became involved in the global jihad after 9/11. The Mumbai attacks 
marked an acceleration of this trend and one of their objectives was to 
generate momentum for LeT, which by 2008 was in danger of being 
eclipsed by other outfits deemed more committed to confronting America 
and its allies. The group's integration with these other outfits has 
deepened in the past 3 years and the scope of its jihad has expanded, 
but internal tensions remain. As a result, the threat comes both from 
the organization and from factions within it.
                     overview: history and ideology
    Before turning to the issue of LeT's intent and capability to 
threaten the homeland or U.S. interests abroad it is useful to explore 
briefly its ideological outlook as well as to situate it within the 
militant environment in Pakistan. LeT's original parent organization, 
the Markaz al-Dawa-wal-Irshad (MDI), was formed in 1986 during the 
Afghan jihad against the Soviets.\1\ MDI officially launched LeT as its 
military wing around 1990, after which the former was technically 
responsible for dawa and the latter for jihad.\2\ MDI was dissolved in 
December 2001, several weeks prior to the government's official ban of 
LeT, and replaced by Jamaatul-Dawa (JuD). JuD remains legal in 
Pakistan, which means LeT continues to have a legitimate front 
organization through which to operate. The group claims that JuD and 
LeT have no connection, but in reality they remain two sides of the 
same coin. For purposes of clarity, I will refer to the group as LeT 
except in those instances where JuD's specific above-ground activities 
or infrastructure is in question.
---------------------------------------------------------------------------
    \1\ Author interview with Abdullah Muntazir, international 
spokesman for Jamaat-ul-Dawa, Dec. 2008 Pakistan.
    \2\ The year of its formation is given as both 1990 and 1993 by 
Lashkar's literature. One of the original MDI founders, who was a 
member of the Jamaat-ul-Dawa senior leadership at the time the author 
interviewed him, confirmed the date was 1990. A former Lashkar member, 
who belonged to the group in 1990, also confirmed that date. Author 
interview with member of Jamaat-ul-Dawa senior leadership, May 2009 in 
Pakistan. Author interview with former Lashkar-e-Taiba member, Jan. 
2009 in Pakistan.
---------------------------------------------------------------------------
    From its inception LeT was committed to pan-Islamist jihad, which 
is to say it viewed itself as fighting on behalf of the entire umma.\3\ 
Al-Qaeda also has a pan-Islamist rationale for action, but its agenda 
is far more explicitly anti-American. Al-Qaeda's primary enemy is the 
United States, whereas LeT historically prioritized jihad against 
India. Many jihadist outfits, including LeT, experienced a 
hybridization after 9/11, whereby they began including America and its 
allies among their list of adversaries to be fought even as they 
continued to prioritize other enemies. Unlike al-Qaeda, which also 
endorses the overthrow of what it considers to be apostate Muslims 
regimes, LeT does not support revolutionary jihad at home because the 
struggle in Pakistan ``is not a struggle between Islam and 
disbelief.''\4\ According to one of its tracts, ``if we declare war 
against those who have professed Faith, we cannot do war with those who 
haven't.''\5\ In other words, jihad against the infidels must come 
first. In lieu of jihad against the state, the group seeks gradual 
reform through dawa. The aim is to bring the people of Pakistan to 
LeT's interpretation of Ahl-e-Hadith Islam and, by doing so, to 
transform the society in which they live.\6\
---------------------------------------------------------------------------
    \3\ Hafiz Abdul Salam bin Muhammad, Why We Do Jihad? (Muridke: 
Markaz al-Dawa-wal-Irshad, May 1999).
    \4\ Hafiz Abdul Salam bin Muhammad, ``Jihad in the Present Time'' 
Markaz al-Dawa-wal-Irshad website, undated. Author's collection.
    \5\ Bin Muhammad, Why We Do Jihad.
    \6\ Author interview with Abdullah Muntazir, Dec. 2008 in Pakistan.
---------------------------------------------------------------------------
    In keeping with LeT's pan-Islamist ideology some of its militants 
joined the jihadi caravan after the Soviet withdrawal from Afghanistan 
in 1989 and fought on multiple open fronts during the 1990s, including 
in Tajikistan, Bosnia-Herzegovina, and possibly Chechnya. Its militants 
have fought in Afghanistan during this decade, and a handful also 
ventured to Iraq.\7\ Most importantly for LeT, is has also been 
fighting in Indian-administered Kashmir since 1990. The ISI began 
providing support for the group not long after it entered the Kashmir 
front, and this assistance was escalating significantly by roughly 
1995. Although state support contributed to the group's devotion to the 
Kashmir cause, LeT's leaders have historically viewed Kashmir as the 
most legitimate open front. They argued Indian-administered Kashmir was 
the closest occupied land, and observed that the ratio of occupying 
forces to the population there was one of the highest in the world, 
meaning this was among the most substantial occupations of Muslim land. 
Thus, LeT cadres could volunteer to fight on other fronts, but were 
obligated to fight in Indian-administered Kashmir.\8\ However, it would 
be a mistake to suggest the group's leaders viewed this simply as a 
territorial struggle. Rather, they asserted that Hindus were the worst 
of the polytheists and that the Kashmir conflict is the latest chapter 
in a Hindu-Muslim struggle that has existed for hundreds of years.\9\ 
Once Kashmir was liberated, they argued, it would serve as a base of 
operations to conquer India and restore Muslim rule to the Indian 
subcontinent.
---------------------------------------------------------------------------
    \7\ Information regarding the presence of LeT militants in Iraq 
from: Author interview with Western intelligence official. U.S. 
Department of Treasury, ``HP-996: Treasury Targets LET Leadership.''; 
Richard Norton-Taylor, ``Britain Aided Iraq Terror Renditions, 
Government Admits,'' Guardian, February 26, 2009. Ahmed Rashid, Descent 
into Chaos, (London: Penguin, 2008) p. 228.
    \8\ Author interview with high-ranking official in Jamaat-ul-Dawa, 
May 2009 in Pakistan. Author interview with Lashkar-e-Taiba member, May 
2009 in Pakistan. Author interview with former Lashkar-e-Taiba member, 
Jan. 2009 in Pakistan.
    \9\ Yoginder Sikand, ``Islamist Militancy in Kashmir: The Case of 
the Lashkar-i Tayyeba,'' South Asia Citizens Web, Nov. 20, 2003.
---------------------------------------------------------------------------
    LeT was only one of many groups the army and ISI were supporting 
during the 1990s. Most of these militant outfits adhered to the 
Deobandi school of thought, as do the Taliban. LeT is not Deobandi, but 
rather Salafi, and so it was historically somewhat separated from these 
other groups for sectarian reasons. It was also focused exclusively on 
Kashmir from the mid-1990s through to the end of the decade, unlike the 
Deobandi groups, which were active in Afghanistan where they fought 
alongside the Taliban as well as in Kashmir. Some were involved in 
sectarian violence in Pakistan too. Pakistan was supporting all of 
these outfits for nationalist, rather than Islamist purposes, but so 
long as this support remained extant, official policy aligned with 
jihadist objectives. When the government of President Pervez Musharraf 
allied with America against al-Qaeda and the Taliban after 9/11, it 
fractured this alignment. The Musharraf regime subsequently divided 
militant outfits into ``good jihadis'' and ``bad jihadis'' based on the 
perceived threats that a group posed to the state and utility it 
continued to offer. This was not a purely binomial division, and 
treatment existed on a spectrum. LeT was the most reliable in 
Islamabad's eyes and fared the best. Unlike the Deobandi outfits, it 
had no strong allegiance to the Taliban and therefore was viewed as 
less of a threat to the state. In addition, it had a robust social 
welfare infrastructure (described in the following section), which 
provided the state with leverage. Finally, LeT was the most India-
centric of Pakistan's proxies, meaning its priorities aligned most 
closely with those of the Musharraf regime. All these reasons help to 
explain why the group reacted with more restraint than the Deobandi 
outfits after 9/11 and, hence, why it was treated better.
    Pakistan's policy of playing a double game has proved to be an 
unsustainable model. By the end of the decade it was facing a jihadi-
led insurgency, making it both a supporter and victim of jihadi 
violence. LeT's leaders also tried to have it both ways after 9/11. 
They continued to view liberating Kashmir as the most legitimate jihad 
and placed a premium on protecting the group's infrastructure in 
Pakistan. As a result, LeT remained focused primarily on the fight 
against India and on expanding the group's social welfare 
infrastructure in Pakistan. However, the global jihad was impossible to 
ignore, and LeT also began contributing to the fight against America 
and its allies almost immediately after 9/11. Examining the means 
through which it has done so sheds light on LeT's capabilities and the 
ways in which it threatens both the U.S. homeland as well as American 
interests abroad.
       capability to threaten u.s. interests: at home and abroad
    LeT has transnational networks stretching across South Asia (and 
perhaps into East Asia via Thailand), the Persian Gulf, and Europe, 
with a particularly strong connection to the United Kingdom. In the 
past, the group's connections also reached into the United States, 
Canada, and Australia, though from the open source it is unclear 
whether its networks in these countries remain active. In addition to 
these networks abroad, LeT militants and trainers in Pakistan are 
considered to be among the most tactically adept. The group also has a 
robust above-ground infrastructure that may be used as a first point of 
contact for would-be jihadists. Finally, it is among the wealthiest 
jihadist organizations and so can contribute financially to operations. 
As a result, it is able to threaten U.S. interests at home and abroad 
in the following ways:
    Training Provider.--The army and ISI trained many of LeT's 
trainers, and some of them are former soldiers who took early 
retirement to join the group. As a result, it boasts a stable of men 
who can provide instruction in small-unit commando tactics, 
reconnaissance, counterintelligence, and the construction and use of 
explosive devices. As LeT has deepened its collaboration with other 
outfits, cross-pollination among trainers and trainees has occurred. 
Training collaboration with other groups of concern to the United 
States takes place primarily in FATA as well as in certain areas of 
Khyber Pakhtunkhwa. It appears less pronounced in Pakistan-administered 
Kashmir and the neighboring Mansehra District (also in Khyber 
Pakhtunkhwa), where the group's camps appear mainly used for operations 
against India. Cross-training takes three forms: LeT runs joint camps 
with other outfits, LeT trainers work in camps run by other outfits, 
and LeT camps provide training to militants from other outfits. Thus, 
significant concern rightly exists that LeT trainers or camps--either 
with or without the leadership's sanction--might be used to prepare 
militants for attacks against U.S. interests at home or abroad.
    Gateway Organization.--LeT has a robust above-ground presence in 
Pakistan, run via JuD. Its mosques, madrassas and offices provide an 
entry point for Western would-be jihadists looking to access militant 
organizations in Pakistan. Because this infrastructure remains 
legitimate, those seeking training can present themselves at a JuD 
facility to link up with the group. From there they could either make 
their way to an LeT training facility or take advantage of LeT's 
connections, at the organizational or grassroots level, to access other 
outfits. For example, in 2005 a would-be jihadist from Atlanta, Syed 
Haris Ahmed, sought to train with the group. He intended to enroll at a 
madrassa and then move on to train with LeT.\10\ Ahmed and his 
colleague Ehsanul Islam Sadequee earlier had taken video surveillance 
of possible targets for a terrorist attack in the United States, which 
they sent to a suspected talent spotter for LeT with whom they were in 
contact.\11\ Ahmed ultimately failed to access LeT's camps, which is 
possibly explained by the fact that he arrived in Pakistan 10 days 
after the 7/7 attacks in London and thus at a time when the group was 
under an enormous amount of pressure. At least one of the 7/7 bombers 
(Shahzad Tanweer) is believed to have attended LeT training sessions 
focused primarily on indoctrination several years prior. In advance of 
his final trip to Pakistan during which time he trained with al-Qaeda 
for the 7/7 attacks, Tanweer reportedly placed an unknown number of 
phone calls from his home in Britain to Lashkar's compound at 
Muridke.\12\ He and his colleague, Mohammad Sidiqque Khan, are also 
believed to have availed themselves of LeT safe houses en route to al-
Qaeda's camps in the Tribal Areas.\13\
---------------------------------------------------------------------------
    \10\ Indictment in United States of America vs. Syed Haris Ahmed 
and Ehsanul Islam Sadequee, United States District Court for the 
Northern District of Georgia, July 19, 2006.
    \11\ United States Attorney's Office Northern District of Georgia, 
``Terrorism Defendants Sentenced: Ehsanul Islam Sadequee Receives 17 
Years in Prison; Co-defendant Syed Haris Ahmed Receives 13 Years,'' 
Dec. 14, 2009.
    \12\ Ewen MacAskill and Luke Harding, ``Ambassador denies Pakistan 
linked to bombs,'' The Guardian, July 18, 2005. Andrew Gilligan, ``On 
the conveyor belt of terror,'' The Evening Standard, Aug. 24, 2006.
    \13\ Author interview with first Western intelligence official. 
Author interview with second Western intelligence official.
---------------------------------------------------------------------------
    Recruitment and Facilitation for Terrorist Attacks.--LeT's 
transnational networks, particularly in Europe, mean it is capable of 
talent-spotting, recruiting, and vetting radicalized Westerners. It 
must be noted that LeT is a historically selfish organization and 
generally sought to use Western operatives to support its own 
operations in South Asia. Nevertheless, it could recruit for other 
outfits or decide to use Western operatives for terrorist attacks 
abroad. Those same networks that can recruit Western operatives may 
also be used to support terrorist attacks against the West, and there 
is evidence LeT has employed them to this effect. For example, 
activists in Paris associated with the group are suspected of providing 
some logistical support to the ``shoebomber'' Richard Reid. French 
investigators suspected, though they could not prove, that LeT's 
representative provided logistical and financial support to Reid in 
Paris as well as facilitating contact for him with a person or persons 
in Pakistan.\14\ LeT operatives in the United Kingdom are also 
suspected of providing money to those involved in the 2006 attempt to 
bomb transatlantic flights from the United Kingdom using liquid 
explosives.\15\ Notably, several of those involved may have used a LeT 
relief camp as a jumping off point to access training camps in FATA as 
well.\16\
---------------------------------------------------------------------------
    \14\ Judgment in Republic of France vs. Rama et. al., Magistrates' 
Court of Paris, June 16, 2005.
    \15\ Dexter Filkins and Souad Mekhennet, ``Pakistani Charity Under 
Scrutiny In Financing of Airline Bomb Plot,'' New York Times, Aug. 13, 
2006. Joshua Partlow and Kamran Khan, ``Charity Funds Said to Provide 
Clues to Alleged Terrorist Plot,'' Washington Post, Aug. 15, 2006. 
Henry Chu and Sebastian Rotella, ``Three Britons convicted of plot to 
blow up planes,'' Los Angeles Times, Sept. 8, 2009. John Burns, ``3 
Sentenced in London for Airline Plot,'' New York Times, July 12, 2010.
    \16\ Praveen Swami, ``Evidence mounts of Pakistan links,'' The 
Hindu, Aug. 12, 2006.
---------------------------------------------------------------------------
    A Unilateral Attack.--It is conceivable that rather than 
contributing to some portion of an attack on the homeland or U.S. 
interests abroad (either via training, as a gateway organization, as a 
recruiting agent or through the provision of logistical support) that 
LeT could execute an operation unilaterally. There is precedent for 
this. From late 2001 through early 2002 a French convert to Islam named 
Willie Brigitte trained with the group. Sajid Mir (a.k.a. Sajid Majid), 
a commander responsible for managing LeT's overseas operatives who was 
recently indicted for his role in the 2008 Mumbai attacks, became 
Brigitte's handler and directed him to return to Paris to act as a 
point of contact for any LeT operative transiting through France.\17\ 
Roughly a year later, Sajid ordered Brigitte to travel to Australia and 
arranged for members of the group's network in Paris to provide him 
with money for the trip.\18\ Brigitte was dispatched to assist Faheem 
Khalid Lodhi, who had trained with the group on multiple occasions.\19\ 
Both men remained in contact with Sajid, who an Australian court later 
found was endeavoring to coordinate a liaison between them so that 
``the prospect of terrorist actions in Australia could be 
explored.''\20\ Australian security officials said the two men intended 
to select a suitable target and purchase the chemicals necessary to 
build a large bomb, but that they were planning to bring in a foreign 
explosives expert to assemble it. There were reports that this 
explosives expert worked in LeT's camps, but whether he was a member of 
the group or a freelancer who contracted out his services is 
unknown.\21\ It is unclear from the open source whether Lodhi was 
directed to execute the attack in Australia by LeT leaders or if he 
germinated the idea and reached out to the organization for assistance. 
In either case, this was an instance in which LeT appears to have been 
acting unilaterally and is evidence of its capability to do so.
---------------------------------------------------------------------------
    \17\ Jean-Louise Bruguiere, Ce que je n'ai pas pu dire (Paris: 
Robert Laffont, 2009), pp. 469-472.
    \18\ Judgment in ``Republic of France vs. Rama, et. al.'' Appeal 
Judgement in ``Fahim Khalid Lodhi vs. Regina,'' New South Wales Court 
of Criminal Appeal, Dec. 20, 2007. ``Frenchman Played `Major' Role in 
Australia Terror Plot, Court Hears,'' Agence France-Presse, Feb. 8, 
2007.
    \19\ ``Committal Hearing of Faheem Khalid Lodhi,'' Downing Centre 
Local Court, Sydney, Australia, Dec. 17, 2004. Natasha Wallace, ``Court 
Battle Over Secret Evidence,'' Sydney Morning Herald, Dec. 18, 2004.
    \20\ Appeal Judgement in Fahim Khalid Lodhi vs. Regina.
    \21\ Author interview with former member of the Australian security 
services. Martin Chulov, Australian Jihad: The Battle Against Terrorism 
from Within and Without, (Sydney: Pan Macmillan, 2006), p. 143. Liz 
Jackson, ``Program Transcript: Willie Brigitte,'' ABC, Feb. 9, 2004.
---------------------------------------------------------------------------
                             gauging intent
    Debates took place within LeT immediately after 9/11 (and President 
Pervez Musharraf's decision to ally with America) about whether to 
attack the United States and/or Pakistan.\22\ The leadership decided 
not to turn on the state, though as explained earlier, it did begin 
contributing to attacks against America. Tensions over how involved to 
be in the global jihad were exacerbated during the middle of the decade 
when state support for the Kashmir jihad declined at roughly the same 
time the Taliban-led insurgency in Afghanistan gained strength. LeT 
became more involved on the Afghan front, which necessitated an 
increased presence in Pakistan's Federally Administered Tribal Areas 
and greater integration with the militants based there, many of whom 
were fighting not only in Afghanistan but also against Pakistan. This 
further increased internal tensions about where the group should focus 
its energies and how close it should remain to the state. Indeed, while 
some LeT members were working with militants from other outfits 
launching attacks in Pakistan, the ISI allegedly was using other LeT 
members to eliminate militants from those same outfits.\23\ Thus, 
different cliques co-existed within LeT, which in turn existed in a 
space where various actors with overlapping and competing agendas were 
present. The exploding array of opportunities for collaboration meant 
the group's members could shop around for like-minded allies.
---------------------------------------------------------------------------
    \22\ Author interview with high-ranking official in Jamaat-ul-Dawa, 
May 2009 in Pakistan.
    \23\ Author interview with Jamaat-ul-Dawa member, Jan. 2009 in 
Pakistan. Author interview with senior officer in Pakistan security 
services, May 2009 in Pakistan.
---------------------------------------------------------------------------
    As a result of escalating tensions within LeT and increasing access 
to other outfits, factionalization within the organization and 
freelancing by its members grew from roughly 2006-2007 onwards. 
According to David Headley, the Pakistani-American operative originally 
named Daood Gilani who conducted surveillance for the 2008 Mumbai 
attacks, these internal dynamics contributed to the LeT leadership's 
decision to expand the scope of the Mumbai attacks. What began as a 
modest 1-2 person operation against the Taj Mahal Hotel became the 10-
person terrorist spectacular that captured the world's attention. 
Several targets, including the Chabad House and the Leopold Cafe, were 
added only months before the operation was meant to take place.\24\ 
Both guaranteed foreigners would be killed, in particular American and 
Israeli Jews at the Chabad House, which would bring LeT credibility 
within the jihadist community. It is important to recognize that the 
leadership appears to have felt compelled to expand its target set as a 
result of pressure--internally and from other jihadist outfits--to show 
greater results vis-a-vis the global jihad. Equally important is that, 
although the Mumbai attacks were operationally successful and secured 
LeT significant notoriety, they failed to quell the tensions within the 
organization over how involved it should be in the global jihad.
---------------------------------------------------------------------------
    \24\ ``Testimony of David Coleman Headley to the Indian National 
Investigative Agency,'' June 3-9, 2010. Author in possession of hard 
copy.
---------------------------------------------------------------------------
    At the organizational level, regional dynamics continue to exert 
considerable and direct influence on LeT. The leadership retains an 
element of nationalism that is distinctly at odds with al-Qaeda and 
still finds common ground, as it has since the 1990s, with elements in 
the army and ISI. LeT and its backers remain co-dependent: Each afraid 
of the repercussions that might stem from splitting with the other, and 
bound together by their belief that India is a mortal enemy. 
Furthermore, unlike al-Qaeda Central, which confronts a challenging 
security environment, LeT controls a robust social welfare 
infrastructure and its leaders value the influence that comes with it. 
In the 1990s the group needed the state to build up its infrastructure, 
whereas now it is reliant on the army and ISI not to tear it down. It 
is worth highlighting the leadership's devotion to dawa through the 
delivering of social services and the fact that protecting its domestic 
infrastructure has at times limited its military adventurism. This 
leadership operates out of Lahore and Pakistan-administered Kashmir, 
not from a hidden redoubt somewhere along the Afghanistan-Pakistan 
border, even though the group has increased it presence there 
significantly. This freedom of movement carries with it a number of 
benefits, but also serves as another leverage point that can be used to 
constrain LeT's activity. As a result, significant elements within the 
group are still ``tamed by the ISI'' as one former member observed.\25\
---------------------------------------------------------------------------
    \25\ Author interview with former Lashkar-e-Taiba member, Jan. 2009 
in Pakistan.
---------------------------------------------------------------------------
    It is questionable whether Osama bin Laden's death will 
significantly impact LeT's behavior as an organization in the short 
term, particularly as the group never considered itself to be an al-
Qaeda affiliate. Because LeT does remain influenced by regional 
dynamics, it is worth considering how bin Laden's death might reshape 
the environment in which the group operates. The Kashmir conflict 
remains torpid and it would be difficult for LeT to regenerate the 
insurgency there. LeT will not disappear from the Kashmiri scene in the 
near term, but a return to its glory days on that front is unlikely. 
This leaves the group with four areas on which to focus: fighting in 
Afghanistan; launching terrorist attacks against India; participating 
in the global jihad via terrorism against the United States and its 
allies; and non-violent activism in Pakistan, primarily through the 
provision of social services. LeT members continue to integrate into 
the Afghan insurgency, but the group remains a secondary player there. 
The United States was already moving toward a phased withdrawal and 
pursuing the possibility of a political reconciliation with the 
Taliban, a condition of which would be the Taliban's willingness to 
break with al-Qaeda. Bin Laden's death could make such a separation 
more viable and create space for a political solution. Of the main 
players supported by the army and ISI in Pakistan--the Afghan Taliban, 
the Haqqani Network and LeT--LeT is the only one without a major 
constituency in Afghanistan. In other words, should a settlement 
emerge, LeT may find itself without an active open front for the first 
time in two decades. This will impact its behavior and group cohesion. 
On the one hand, a reduction in hostilities in Afghanistan might remove 
pressure from the rank-and-file to engage more vigorously in the global 
jihad. On the other hand, it could lead those unwilling to lay down 
arms and robbed of an open front to seek other opportunities, 
particularly terrorist attacks against India, Pakistan, or the United 
States and its Western allies.
    According to interlocutors in Pakistan, the ISI continues to put 
pressure on the group to refrain from launching either another 
terrorist spectacular in India, which could trigger a war, or an attack 
against America or its allies. Yet, as should be evident, there is 
cause for concern that in the case of attacks against the United States 
or its allies, this presumes a level of influence by the ISI and by LeT 
leaders that is at odds with the ground reality. The current threat to 
Western interests comes from a conglomeration of actors in Pakistan who 
are working in concert. Thus, LeT need not take the lead role in an 
attack in order for its capabilities to be used against the U.S. 
homeland or its interests abroad. Notably, working as part of a 
consortium enables LeT to earn credit from its fellow militants while 
also providing it cover, since shared responsibility makes it easier 
for the group to conceal its fingerprints from the United States or 
other possible targets. Furthermore, the threat comes not only from LeT 
as a stand-alone organization or from its collaboration with other 
actors. Rather, individuals or factions within LeT can utilize its 
domestic infrastructure as well as transnational capabilities to pursue 
their own operations. Enhanced organizational integration with other 
outfits heightens the opportunities for freelancing, thus increasing 
the chances that some of the group's capabilities might be used for 
attacks without the leadership's consent. Because members who leave do 
not necessarily cut ties with the group, or may bring elements within 
it with them, the threat also comes from LeT's alumni network. Thus, 
when assessing the dangers of LeT's expansion in terms of its intent in 
the medium term as well as how it might respond in the near term 
following bin Laden's death, one must consider the capability of 
current and former members both to steer the organization in an 
increasingly internationalist direction as well as to leverage its 
infrastructure for these purposes whether or not the leadership 
approves.
                            recommendations
    Dismantling LeT must be a gradual process in order to avoid 
provoking a major backlash that could destabilize Pakistan or cause the 
group's transnational operatives to be unleashed. All of the 
recommendations that follow are LeT-specific and intended to spur 
debate about how to move this process forward. They do not focus on the 
need for or mechanisms by which the United States should continue to 
support Pakistani efforts to achieve reforms in areas including 
education, the economy, or the judiciary, all of which could benefit 
the process of action vis-a-vis LeT.
    First, accelerate actions necessary for a global takedown of LeT:
  <bullet> Continue to pursue counter-terrorism cooperation with, and 
        support to, India and Bangladesh. Doing so is necessary for 
        tracking, degrading, and dismantling LeT's networks in 
        Pakistan's near abroad, which is where they are strongest. 
        Providing counter-terrorism assistance to India, particularly 
        in areas that contribute to a more robust homeland security 
        capability, also decreases the utility LeT offers to Pakistan.
  <bullet> Pursue greater counter-terrorism cooperation with Nepal, Sri 
        Lanka, and the Maldives, where LeT networks are currently 
        expanding. Arresting this tide now, before these operatives 
        secure too strong a foothold, is important for containing the 
        short-term threat and for reducing the chances of an escalation 
        in the future.
  <bullet> Continue to pursue counter-terrorism cooperation and 
        intelligence sharing vis-a-vis LeT with allies in Europe and 
        the Gulf (especially Saudi Arabia, Dubai, and the United Arab 
        Emirates). This should include not only interdicting financial 
        support, but also monitoring and perhaps infiltrating networks 
        that could be used to recruit operatives or provide logistical 
        support for terrorist attacks.
    Second, consider the following when it comes to action by Pakistan 
against LeT:
  <bullet> In the near term, continue to signal to the Pakistan army 
        and ISI the severe repercussions that would result were LeT or 
        elements within it to be involved in an attack on the homeland 
        or American interests abroad. The United States must also 
        continue to signal the need for Pakistan to restrain LeT from 
        launching another major terrorist attack against India. 
        Moreover, the United States should continue to press Pakistan 
        to provide intelligence regarding LeT's international networks, 
        to interdict Westerners attempting to access the organization's 
        above-ground infrastructure and to begin taking steps to 
        dismantle LeT's training apparatus. While the most pressing 
        need may be to degrade LeT's operations in FATA, where it is 
        most closely integrated with other outfits that threaten the 
        homeland, all of its camps are capable of training militants 
        who threaten U.S. interests.
  <bullet> In the medium term, increase the focus on building up 
        Pakistan's counter-terrorism capacity via civilian law 
        enforcement and civilian intelligence agencies. These entities 
        will be on the front end of any effort to combat a possible 
        backlash from LeT and have utility against other militant 
        outfits currently threatening the state. The United States 
        should also consider contributing to alternative relief 
        mechanisms in Pakistan to reduce the above-ground JuD's 
        influence and fundraising capability.
  <bullet> At present, there is no significant effort underway to 
        disarm, demobilize, or reintegrate (DDR) any of the militant 
        outfits or networks present in Pakistan, either those allied 
        with or attacking the state. With a view toward the longer-
        term, the United States should explore the feasibility, costs, 
        and benefits of prevailing on a third party, such as Saudi 
        Arabia, to begin working with Pakistan to build a program for 
        DDR. Such a program would have utility for LeT as well as for 
        other militants, though obviously it would take time to 
        construct and would be of limited utility without political 
        shifts vis-a-vis India and Afghanistan. Jamaat-ud-Dawa (JuD) 
        has acted as a repository for decommissioned militants in the 
        past, suggesting some members are willing to forsake militancy 
        in favor a social welfare or proselytizing mission. Thus, it 
        provides a possible means for shifting the organization fully 
        toward non-violent activism over the long-term. The 
        leadership's commitment to dawa and hence to protecting its 
        social welfare infrastructure suggests this path deserves 
        exploration. However, several caveats are in order. First, this 
        must be accompanied by a real and sustained crackdown on LeT's 
        militant apparatus. Otherwise, this approach risks legitimizing 
        the above-ground wing of a terrorist organization. Second, this 
        approach could have serious political and social repercussions 
        within Pakistan given JuD's Islamist agenda. Third, while some 
        militants might accept a glide path from LeT to JuD, others 
        almost certainly would fight on and would likely do so either 
        against Pakistan or in pursuit of a wider global jihadi agenda. 
        Despite these very real dangers, various interlocutors in the 
        Pakistani security establishment have mooted this approach and 
        thus the United States should explore its possible costs and 
        benefits. Intrinsic to this will be developing the metrics 
        necessary to confirm JuD is being used as a means of 
        demobilizing LeT, and no longer as a front for it.
    Demobilizing LeT militants and dismantling its military apparatus 
is unlikely absent a fundamental shift in India-Pakistan relations or, 
at this stage, some resolution to the conflict in Afghanistan. Yet this 
is no reason not to consider the aforementioned actions in order to lay 
the groundwork in the event such a breakthrough is reached. As the 
world witnessed with elimination of Osama bin Laden, persistence and 
preparation do pay off.

    Mr. Meehan. Thank you, Mr. Tankel.
    I neglected to say that you are finishing your book. I need 
to give you a plug for ``Storming the World Stage: The Story of 
Lashkar-e-Taiba.'' So a very learned presence here today.
    Mr. Tankel. Thank you.
    Mr. Meehan. Let me take one more bit of housekeeping. I ask 
unanimous consent that Mr. Marino from Pennsylvania, a Member 
of the full committee, be allowed to sit on the dais for this 
hearing.
    Without objection, so ruled. Thank you, Mr. Marino.
    Now for our final testimony, the witness is Shuja Nawaz. 
Mr. Nawaz is the director of South Asia Center at The Atlantic 
Council of the United States. A native of Pakistan, Mr. Nawaz 
provides expertise on the region in a multitude of forums and 
is the author of the 2008 book, ``Crossed Swords: Pakistan, Its 
Army, and the Wars Within.''
    Mr. Nawaz, you are now recognized to summarize your 
testimony for 5 minutes. Thank you, sir.

  STATEMENT OF SHUJA NAWAZ, DIRECTOR, SOUTH ASIA CENTER, THE 
                        ATLANTIC COUNCIL

    Mr. Nawaz. Thank you, Mr. Chairman, Ranking Member Speier, 
and Members of the subcommittee. I am honored to speak before 
you on this critical subject that is of concern to the United 
States, Pakistan and, need I say, the rest of the world. I 
shall take a macro approach to the situation in Pakistan and 
especially to the relationship with the United States.
    As Steve Tankel has already talked of the LeT, I am not 
going to dwell at length on that particular organization or any 
of the other individual organizations, but I should recognize 
that Pakistan today is a magnet and a haven for terrorists from 
around the globe. It has an internal conflict, a weaponized 
society, and a sagging economy and a defunct educational system 
that is not preparing its youth adequately for the 21st 
Century.
    The killing of Osama bin Laden will not alter these 
underlying conditions that spawn terrorism, but it is an 
inflection point that could help us change the relationship 
with Pakistan, perhaps for the better. As the Chairman said, we 
must make this relationship work.
    I believe that the issues of militancy and terrorism have 
to be examined both from a national and a regional perspective. 
There is no silver bullet answer. As the Beatles told us, 
``Money can't buy you love.'' So throwing money at the problem 
is not a real solution, as our nearly $1 trillion in Iraq and 
Afghanistan have proven already.
    Just as we do, our partners around the world are looking 
for respect, consistency, and honesty in relationships. The 
United States needs to think long-term and act even in the 
short term with those longer-term objectives in mind.
    In supporting an autocratic military regime in the past, we 
ignored the needs of the people of Pakistan and led to their 
disenfranchisement by civil and military elite. Both the 
Soviet-Afghan war and after we had exited the scene, Pakistan 
took on a deeper regional role focusing on its historical 
rival, India, and fomenting uprisings across the eastern border 
in Kashmir. These chickens came home to roost in later years as 
the armed warriors of this jihad outgrew their controllers' 
grasp and widened the scope of their activities beyond Kashmir 
to India proper, and now perhaps to Europe and North America.
    Meanwhile, the sudden appearance of globe-shrinking 
technologies and the ability to raise funds from across the 
globe and to train people allowed these groups to attract 
fanciful warriors from the homelands in the West. The military 
regime that we supported in the 1980s left a legacy of 
Islamicized education systems that degraded learning 
institutions, stunted administrative machinery, and relied on 
political engineering or manipulation to manage the polity to 
its liking. Today we face a huge challenge inside Pakistan.
    A demographic time bomb is ticking. With a median age of 
about 20 years, roughly 60 million youth out of a population of 
180 million are between 16 and 25 and are largely illiterate 
and unemployed. They live in the Rentier state that has spawned 
unbridled kleptocratic behavior among its leaders.
    While attention has been focused on the U.S.-Pakistan 
relationship, I believe the greatest influence on the rise of 
terrorism in Pakistan is the lack of governance. The country 
faces an economic crisis due in part to global shocks, but to a 
larger extent governmental ineptitude and lack of basic 
reforms. The confluence of poor governance and external and 
internal shocks to the economy and polity of health create a 
perfect backdrop to the violent culture of terrorism in 
Pakistan.
    Countering the hydra-headed insurgencies and militancies 
that inhabit Pakistan today is a huge task for which Pakistan 
has largely relied on military force. In the past, the army has 
changed its training regimen to focus on counterinsurgency, but 
it still doesn't have the relationship between 
counterinsurgency and counterterrorism in mind. As Mr. Tankel 
just explained, that is the weakness of the system inside 
Pakistan. It also needs many tools, helicopters for mobility, 
drones for tracking, and attacking highly mobile terrorists in 
a difficult border terrain.
    Most of all, it will need the political will to undertake 
these efforts, particularly inside the Punjab, and it will need 
to improve its policing procedures and processes. Now, the 
United States is already working with some elements of civil 
society, but much more needs to be done.
    Mr. Chairman, Ranking Member, Members of the committee, the 
United States can and should play a role in advising and 
assisting Pakistan in order to prevent the rise of terrorism 
that could attack the homeland, but I believe that it is in 
Pakistan's own interests to undertake the difficult policy 
changes that will allow it to focus on all terrorist groups 
operating inside its borders.
    We must insist on an honest dialogue and reward honesty 
with honesty. We must follow a two-pronged policy, helping 
change the socioeconomic and political landscape, and helping 
Pakistan set up a broad-based counterinsurgency and 
counterterrorism operation. The United States should also 
invest in signature infrastructure projects that will become a 
lasting reminder of U.S. assistance.
    The largest single potential, in my view, for improving 
Pakistan security and economy is the normalization of relations 
with India, a process that is now beginning to show signs of 
revival. Just to give you an idea, increased trade between 
these two countries, rising from about 2 billion a year to 
between 40- and 100 billion a year, would radically alter the 
lives of people on both sides of the border.
    A prosperous Pakistan will be a more confident and secure 
Pakistan. In my view, a stable and secure Pakistan can help 
create a stable South Asia and a safer United States.
    Thank you.
    [The statement of Mr. Nawaz follows:]
                   Prepared Statement of Shuja Nawaz
                              May 3, 2011
    Mr. Chairman, Ranking Member Speier, Members of the subcommittee, I 
am honored to speak before you on this critical subject that is of 
concern to the United States, Pakistan, and the rest of the world. 
Indeed, I spend much of my time addressing this issue in the day-to-day 
work of our South Asia Center at the Atlantic Council that is designed 
to ``wage peace'' in our area of responsibility that includes South 
Asia, The Gulf, Iran, Afghanistan, and Central Asia. The death of Osama 
bin Laden, a man who brought death and destructions to thousands around 
the world, does not change the underlying causes of militancy and 
unrest around the world but especially in our area of responsibility: 
Greater South Asia. Indeed, the long and costly campaign to bring him 
to justice is a good example of how long festering conditions in 
authoritarian societies give rise to terrorism with its attendant pain 
and suffering.
    I believe that the issues of militancy and terrorism have to be 
examined both from a national and a regional perspective. They arise 
out of complex underlying conflicts and national and regional 
narratives. There is no Silver Bullet answer to the perplexing problem 
of terrorism in Pakistan and other countries in its wider neighborhood 
today. Throwing money at the problem does not offer a solution, as our 
nearly a trillion dollars in Iraq and Afghanistan have proven. As a 
youth of the 1960s, I can assure you that the Beatles were correct when 
they sang ``Money can't buy you love''. We must recognize that our 
friends and partners in many parts of the world are looking for 
respect, consistency, and honesty in relationships. As does the United 
States. America does not like being taken for a ride. In short, it 
needs to think long-term and act even in the short-term with those 
longer-term objectives in mind rather than being distracted by shorter 
time horizons.
    Pakistan today is a magnet for terrorists from around the globe. It 
has an internal conflict, a weaponized society, and a defunct 
educational system that is not preparing its youth adequately for the 
21st Century. We have contributed to that condition since the 1980s by 
pulling out of the region abruptly, leaving a military dictatorship to 
deal with the debris of war in the neighborhood and its blowback. In 
supporting an autocratic military regime, we ignored the needs of the 
people of Pakistan and led to their disenfranchisement by a civil and 
military elite that increasingly began to see itself as the arbiter of 
the country's future, without reference to the needs and the will of 
the people.
    Pakistan took on a deeper regional role in our absence, focusing on 
its historical rival India and fomenting uprisings across the eastern 
border in Kashmir. These chickens came home to roost in later years, as 
the armed warriors for this ``jihad'' outgrew their controllers' grasp 
and widened the scope of their activities beyond Kashmir to India 
proper and now perhaps to Europe and North America. When the Pakistani 
authorities distanced themselves from the Jihadi groups in order to 
seek peace with India in 2004-2005, there was no plan to demobilize, 
disarm, and de-radicalize these groups. They simply cut them loose.
    Meanwhile the sudden appearance of globe-shrinking technologies and 
the ability to raise funds from across the globe and to train people, 
using the latest internet-based systems, allowed these groups to 
advertise their wares and attract fanciful warriors from the homelands 
in the West. A continuous stream of a selective historical narrative 
about the Western and Indian ``other'' fed the young minds in Pakistan. 
The military regime that we supported in the 1980s left a legacy of 
Islamicized education systems that degraded learning institutions, 
stunted administrative machinery, and relied on political engineering 
or manipulation to manage the polity to its liking.
    Today we face a huge challenge inside Pakistan. A demographic time 
bomb is ticking. With a median age of about 20 years, roughly 60 
million youth out of a population of 180 million between 16 and 25, and 
are largely illiterate and unemployed. They see and hear what is 
happening across the globe and in their neighborhood. They dream big 
dreams. And they are looking for an opportunity to become part of a 
successful dream. But they live in a Rentier State that has spawned 
unbridled kleptocratic behavior among its leaders. The elites of 
Pakistan have conspired to live off the state's decreasing asset base, 
giving little in return. Only 2 million of them pay income taxes. 
Leading political figures sometimes pay none or less than $100. 
According to one report based on the Election Commission of Pakistan 
data, the Prime Minister and many of his senior colleagues in the 
cabinet had not paid any income tax for the 5 years leading up to the 
2008 elections.\1\ According to The New York Times, ``The country's top 
opposition leader, Nawaz Sharif, reported that he paid no personal 
income tax for three years ending in 2007 in public documents he filed 
with Pakistan's election commission'' while he was in exile.\2\ This is 
the example that Pakistani political leaders are setting for its 
people!
---------------------------------------------------------------------------
    \1\ http://news.in.msn.com/international/article.aspx?cp-
documentid=4426336.
    \2\ http://www.nytimes.com/2010/07/19/world/asia/19taxes.html.
---------------------------------------------------------------------------
    A vicious cycle persists: Government fails to deliver services. 
People refuse to pay for services or even taxes that would allow the 
government to provide them with services. Even the parliament and 
government refuses to pay power companies for electricity, forcing them 
to shut down their power generation plants, reducing energy in a 
country whose industries are operating at half capacity, as a result.
    Our ``investments'' have been in governments of this nature for 
decades in Pakistan. And the bulk of our assistance has been to the 
military in order to garner its support for our war in Afghanistan. The 
United States offered cash in return for this assistance and then 
demanded receipts. Then we rejected the validity of some receipts, and 
held up payments. The result: An ever-growing Trust Deficit that cannot 
be removed by short-term measures or statements of intent, nor by 
outsiders. Pakistan has to start by taking charge of its problems and 
once it begins dealing with them, then external assistance can and 
should play a positive role.
                            domestic factors
    While attention has been focused on the U.S.-Pakistan relationship, 
I believe the greatest influence on the rise of terrorism in Pakistan 
is lack of governance. Pakistan's protracted periods of military rule 
have stunted the political system and eviscerated the superstructure of 
the government that is provided by the bureaucracy. Government is 
unable to perform, as a result. Political engineering by autocratic 
regimes has cumulatively reduced most political parties to 
opportunistic cabals vying for a share of the spoils that come with 
being part of government. Not unlike other dysfunctional 
``democracies'', most of Pakistan's political parties are run as family 
businesses. They do not have internal democracy. Their leadership is 
decided on a hereditary basis. This widespread condition persists today 
in the ruling Pakistan Peoples Party, the Pakistan Muslim League 
(Nawaz), the Pakistan Muslim League (Q), the Awami National Party, 
among others.
    All this would not matter if the economy were growing, and people 
had enough food, prices were held in check, and energy was abundant for 
industrial growth. This is not the case. The country faces an economic 
crisis: Due in part to global shocks, but to a larger extent 
governmental ineptitude and lack of basic reform. Pakistan today is 
facing rising inflation, close to 15 percent now but rising to 25 
percent, continuous deficit financing that fuels this inflation, and 
increased dependence on funding from the United States and the 
International Monetary Fund instead of the markets. Food prices have 
risen dramatically and since the poorest spend half their income on 
food, they suffer the most. As a senior minister confided to me not 
long ago: The government does not have the vision nor the political 
will to undertake the reforms it promised the IMF. A serious 
indictment, indeed. The confluence of poor governance and external and 
internal shocks to the economy and polity have helped created the 
perfect backdrop to the violent culture of terrorism in Pakistan.
                         the terrorist threats
    The hydra-headed terrorist threat that has made its home in 
Pakistan's heartland and in the borderland with Afghanistan is worth 
identifying in detail.
  <bullet> Al-Qaeda continues to use Pakistan as base, in the cities 
        that offer it a hiding place, and the remote mountainous 
        reaches of the north west. Most key figures of al-Qaeda have 
        found refuge in the towns and cities of Pakistan proper and not 
        in the inhospitable hills and mountains of the border region. 
        Osama bin Laden was no exception, seeking shelter in Abbottabad 
        in a town that was dominated by the military of Pakistan.
  <bullet> A number of Sunni extremists groups, arising out of the 
        sectarian conflict in the Punjab, including the Lashkar e 
        Jhangvi, Sipah e Sahaba, and Jaish e Muhammad operate 
        autonomously and also as franchisees of al-Qaeda. AQ has also 
        found support from elements in mainstream Islamic parties, 
        including the Jamaat I Islami, some of whose members hid AQ 
        targets. These Punjabi Taliban are a growing menace, since they 
        arise from the area that also now recruits most of the new 
        entrants to the Pakistan army. Elements of these groups have 
        been reportedly involved in attacks against the Pakistan army.
  <bullet> The Tehreek e Taliban of Pakistan (TTP) grew out of the 
        movement of Pakistani forces into the Federally-Administered 
        Tribal Areas at the request of the United States. It grew into 
        a potent brand name but now is on the decline, its leadership 
        having been dislocated from the Mehsud heartland of South 
        Waziristan and partially destroyed by the CIA drone attacks. 
        The TTP is at war against the Pakistani state and provides 
        training facilities for a growing number of wannabee Jihadis 
        from Europe, North America, and elsewhere.
  <bullet> The Laskhar e Tayyaba remains a powerful entity, having 
        grown beyond the control of its official handlers who once 
        trained it to support the uprising in Kashmir against India. It 
        has a vast financial network of support form private Pakistanis 
        and external sources, from the Gulf. Its target is now all of 
        India and more dangerously the globe, wherever it sees enemies 
        of Islam. Reports have linked current or former officers of the 
        ISI to the LeT. Many ISI officials were removed summarily in 
        the mid 1990s when a new director general was appointed in 
        place of an Islamist general and the overtly Islamist elements 
        were let go. But there was no attempt to track or control them. 
        Clearly they found a home in the groups whom they were once 
        handling.
  <bullet> The Afghan Taliban, including the Mullah Umar group, the 
        Haqqani group, and the Hizb I Islami all operate in the border 
        region, using Pakistani territory as sanctuary, as needed. 
        Their focus is on Afghanistan and fighting the coalition.
    Countering these groups is a huge task for which Pakistan has 
relied largely on military force and only in the northwest, where 
counterinsurgency operations have been conducted for about 7 years. In 
the past 2 years, the army has revamped its training regimen to focus 
on COIN or Low Intensity Conflict. But it does not involve close 
collaboration with the civil authorities before or after operations, 
following the U.S.-inspired continuum of COIN operations: Clear, Hold, 
Build, and Transfer. Hence, the Army has managed to Clear and Hold but 
successfully Build or Transfer most of the territory it cleared, except 
in Swat where induction of retired military personnel into the police 
allowed it to transfer security to civil authorities and exit to some 
extent.
    Pakistan has learned COIN by doing. It has rapidly transformed its 
training institutions to shift from a focus on purely conventional 
warfare to unconventional war. It has yet to create a viable nexus 
between COIN and Counterterrorism.\3\ For its COIN operations, Pakistan 
still needs many tools: Helicopters for mobility and drones for 
tracking and attacking highly mobile terrorists in a difficult border 
terrain. But in the next phase of this internal war, Pakistan will need 
help and guidance from many sources as it crafts its own CT operations 
in the heartland. It will need to learn from the experience of the 
Saudis, Indonesians, Singaporeans, and others. It will need financing 
and information.
---------------------------------------------------------------------------
    \3\ See ``Learning by Doing: The Pakistan Army's Experience with 
Counterinsurgency'' by Shuja Nawaz, Atlantic Council 2011.
---------------------------------------------------------------------------
    But most of all, it will need the political will to undertake these 
efforts inside the Punjab. As a necessary part of that effort will be 
the need to improve its policing procedures and legal processes so that 
forensics and evidentiary systems could assist the government in 
prosecuting alleged terrorists and reduce their ability to get away by 
taking advantage of lax laws and poor police work. The United States is 
working with some elements in Pakistan civil society to focus on some 
of these needs. But much more needs to be done with the civil 
authorities in addition to the military-to-military aid relationships 
for a stable and more viable CT situation to develop in Pakistan. In 
that process, Pakistan will need to cut through the undergrowth of a 
police system with some 19 different Federal and provincial agencies 
tripping over each other, all largely underequipped and poorly trained.
    And it will be critical for the government to finally complete work 
on its National Counterterrorism Authority that has been in limbo for 
nearly 2 years now largely because of debate on where it ought to be 
located. It is currently under the Interior Ministry but will likely 
not get support from the provinces or the military because of that 
location. An autonomous entity in the Prime Minister's office is most 
desirable but there has been no progress on this matter for over a year 
and especially since the departure of the first director general, who 
left in frustration.
                              what to do?
    Mr. Chairman, Ranking Member, Members of the committee, the United 
States can and should play a role in advising and assisting Pakistan as 
a way of preventing the rise of terrorism that could attack the 
homeland. But, more important, I believe that it is in Pakistan's own 
interest to undertake the difficult policy changes that will allow it 
to focus on all terrorist groups operating inside its borders and not 
differentiate between them. It cannot control them. So, we must follow 
a two-pronged policy: Helping Pakistan change the socio-economic and 
political landscape to reduce the ability of the forces of terror to 
spawn, and by helping Pakistan set up an effective COIN and CT 
operation that involves both the civil and the military. If Pakistan 
fails to do this, no amount of external advice or aid will work. We 
have tried to do a lot with the 13-odd groups that provide the basis 
for the engagement of the Special Representative's office with 
Pakistani counterparts and via the Strategic Dialogue. I believe we 
have to focus on key areas and do them well. Education, for example, 
which is the focus of a combined British and Pakistani joint task force 
headed by Sir Michael Barber and Ms. Shahnaz Wazir Ali. The United 
States is participating in this effort. This will give it greater heft 
and lay the ground for longer-term development that Pakistan sorely 
needs. The United States should also invest in signature infrastructure 
projects that will become a lasting reminder of U.S. assistance. A 
major dam or two to help Pakistan meet its energy and water shortage, 
and a highway and railway network linking say the port of Gwadar to 
Afghanistan would alter the economic landscape of Pakistan's backward 
Balochistan province and create possibilities for trade with Central 
Asia.
    The largest single potential for improving Pakistan's security and 
economy both is the normalization of relations between India and 
Pakistan, a process that is beginning to show signs of revival. 
Increased trade between the two countries to reach the levels of trade 
that existed at the time of independence would raise their current 
trade level from about $2 billion a year to between $40 and 100 billion 
a year and radically change the lives of people on both sides of the 
border. This would especially benefit the districts that are now the 
breeding ground of the Punjabi Taliban and that are contiguous with 
Indian Punjab. The United States can use its strategic partnership with 
both India and Pakistan to encourage and to some extent underwrite 
projects and moves in the direction of greater regional trade between 
them and their neighbors in Central Asia. It goes without saying that 
trade and people-to-people contact between India and Pakistan will make 
it difficult for the forces that favor conflict between these neighbors 
and reduce the need for unproductive military spending. With that in 
mind we at the Atlantic Council are engaged in a number of projects to 
examine water conflict between the two countries and to begin 
engagement between their militaries. A prosperous Pakistan will be a 
more confident and secure Pakistan. It is not there yet and the obvious 
lack of trust that was signaled by the U.S. unilateral action against 
Osama bin Laden in Abbotabad 2 nights ago is a good example of the gap 
that exists between the United States and Pakistan.
    Let me end on the words I used in my opening segment: We need to 
work with Pakistan with respect for an ally, but be consistent and 
honest in our exchanges and interactions so there is no disconnect 
between what we say and what we do. Let us agree on longer-term goals. 
The United States and Pakistan have been friends for a long time. As 
friends, we can disagree from time to time but the vision of a safe and 
secure world and the growth and development of Pakistan remains key to 
the success of this endeavor. Counterterrorism often falls into the 
trap of tactical and technological solutions. I believe we have to 
broaden the aperture and identify and adopt measures that affect the 
human terrain and over a longer time frame than our domestic politics 
sometimes allow. On its part Pakistan must return the favor of honesty 
and openness, so we can work with it without fear of being deceived.
    A stable and secure Pakistan can help create a stable South Asia 
and a safer United States. I believe it is worth the effort we are 
putting into it and much more.
    Thank you.

    Mr. Meehan. Thank you.
    Thank you, Mr. Nawaz, and I want to thank each of the 
members of this very distinguished panel for your testimony.
    We are facing very difficult circumstances in that we have 
got some hearings--not just the hearings, but we have got to 
attend a classified briefing at 3 p.m., which is now, I am 
told, going to be followed by a series of votes. So as in 
recognition of what that significant delay would mean, and out 
of the respect for your time as well, I am reluctantly going to 
limit the questioning to myself and the Ranking Member for some 
limited questions now. Perhaps at some point in time, if we 
have the agreement of the committee, we can follow up again on 
this very, very important topic with you as panelists, because 
I think there is some significant questioning that can be done. 
I thank you for your preparation, and I am hoping we can we can 
do more to follow up on it.
    But allow me just for a moment to begin a few limited 
questions at this point in time. Let me start with you, Mr. 
Kagan. You made a comment about not dealing with the Taliban. 
Am I correct in that assessment? Is that something that you 
said?
    Mr. Kagan. I said this is not the moment to pursue a 
negotiated settlement for the Taliban, in my opinion.
    Mr. Meehan. Most of the analyses that I have read recently 
seemed to suggest that that may be a critical aspect to our 
ability for the United States to unwind its current military 
commitment to that region, it may be including the idea of 
finding some kind of a political solution with Taliban, and it 
is your belief at this point in time that that would be an 
unwise strategy?
    Mr. Kagan. I will keep my answer short, but it is, in fact, 
very long. First of all, there are not all that many 
insurgencies--I can't think of any off-hand--that were actually 
resolved by a negotiated settlement with the armed fighting 
wing of the insurgency. It is an odd historical model; I am not 
sure, I think it is an import actually from the Bosnia-Kosovo 
model that is informing this thinking. But those were not 
insurgencies, those were civil wars. So, I am not sure what the 
historical basis is or examples of this kind of negotiation.
    But in particular what I would say right now is that we 
have--we are changing the situation, the military situation, on 
the ground in Afghanistan dramatically this year. I believe 
that we will begin to see changes in the political dynamic in 
Afghanistan as well. We have just made progress, some symbolic 
progress if nothing else, with the death of bin Laden.
    One negotiates best at moments of strength, and we have not 
yet reached our position of greatest strength and success yet. 
Nor, I believe, have the Taliban yet reached their position of 
greatest weakness. I think that we have to be very, very alert 
to the danger of seizing a deal prematurely because it serves 
our own domestic concerns and so forth that will not, in fact, 
lead to stability.
    Last, I would just say it is extremely important to 
understand the Taliban, particularly the Mullah Omar branch of 
the Taliban, does not represent Afghanistan's Pashtuns. They do 
not represent the aggrieved population that has been fueling 
this insurgency. They have capitalized on them, but making a 
deal with that leadership will not inevitably or, I think, even 
likely bring along with it those who are most aggrieved who 
have been supporting conflict in Afghanistan.
    So I think the notion that we can wrap this up with some 
Dayton-like agreement with Mullah Omar or some of his henchman 
and have--bring peace thereby to Afghanistan I just think 
misunderstands the situation in the country at this point.
    Mr. Meehan. Thank you for your comments on that.
    I just have a quick question for you, Mr. Jones. You also 
discuss the concept of Dr. Jones, the concept of our search for 
al Zawahiri, and the belief that at one point in time he may 
have been in Pakistan, we were to continue to be looking for 
him, but simultaneously open to the concern you have for the 
collaboration, that it appeared to be existing or at least 
the--to some extent the relationship that existed between the 
LeT, Haqqani network and some facets of Pakistani leadership.
    Now, this goes to sort of one of the fundamental questions 
that I don't--we want to talk about so many various elements of 
what is going on there and the threat emanating from the 
region, but we are dealing in the aftermath of the bin Laden 
situation, and we know the tremendous commitments that have 
been made from the Pakistanis.
    But you identified an issue in which there is a little bit 
of divided loyalties. Let us face it, there is an elephant in 
the room right now, and it is not just soldiers on the front 
line, it is a Nation here in the United States that has been 
victimized by terror that is similarly asking its citizens to 
make a substantial commitment with its young men and women on 
the front lines on behalf of the countries, and then in 
addition with its treasure.
    Now, bin Laden was in there for 6 years before he was 
discovered, and I think Americans are asking how they could 
have gone undetected for that long in that kind of an 
environment, and does it reflect in some extent some kind of 
divided loyalty or complicity in some part, or incompetence, or 
both? I am going to ask the panel to help us resolve that issue 
so we can move forward in trying to find some collaboration or 
opportunity. I am asking you sort of with a--to give a quick 
sort of observation, because my time is running out.
    Mr. Jones. The answer to the question, there is a lot 
obviously at this point we do not know about the specifics 
regarding who knew what about bin Laden's location.
    What I will say is this: Pakistan clearly had an interest, 
after 
9/11, in cooperating with the United States to capture and/or 
kill senior al-Qaeda leaders on its soil, and there are a 
wealth of examples, including the mastermind of the September 
11 attacks, Khalid Sheikh Mohammed, who was captured, as have 
several leaders in urban areas to demonstrate that.
    Those types of arrests or killings have tailed off. So I 
would say, at the very least, whether there was complicity or 
incompetence, at the very least there has not been a high 
priority in targeting senior al-Qaeda leaders in Pakistan. 
Based on the threat streams coming from this area, those 
interests have to change, in my view. I do not believe it has 
been a high priority.
    Mr. Meehan. Well, thank you. I reluctantly appreciate the 
5-minute time limit on my ability to ask questions, and I know 
we would like to have extended the questioning throughout the 
entire panel, but I have to conclude right now, and I turn it 
over to the Ranking Member Speier for her questions.
    Ms. Speier. Mr. Chairman, thank you.
    Thank you for your testimony. It is very troubling, though, 
because on the one hand, I think you are all basically saying, 
and correct me if I am wrong, that our presence in Pakistan 
must remain; is that true? Does anyone disagree with that?
    Mr. Kagan. In some form. I think it is not--I don't know--
speaking for myself, I don't know that this particular 
relationship in this particular structure is the right one, but 
in some way we must maintain a relationship with Pakistan.
    Ms. Speier. So do the American people--we say we have spent 
over a trillion dollars in the last 10 years in Iraq and 
Pakistan, we have spent close to $20 billion in Pakistan, and 
we had to go in ourselves to take out bin Laden. I agree with 
the Chairman, there is elephant in the room, and it really 
comes down to trust.
    For all the money we have spent, how can we develop a 
relationship of trust with the Pakistani government when, in 
fact, you have what I would call a fairly weak President and an 
ISI that is rogue at the very least?
    So, my question to you is, where do we go from here in 
terms of creating that trust? Money alone hasn't gotten us that 
trust from the Pakistani government.
    Mr. Nawaz. If I may, let me suggest that the beginning of 
trust has to be a closed-door, honest discussion with our 
Pakistani counterparts. We have been talking through the media 
quite a lot, and we don't recognize that we talk separately 
with the civilian government and separately with the military 
authorities. So we have created or added to the dysfunctional 
polity of Pakistan by having these two parallel dialogues.
    I think it is very critical for us to bring all of them 
together in the room. This happens so infrequently for our 
leadership when it goes to Pakistan or when people come from 
Pakistan to Washington that it yields some benefit when we have 
them all in the same room together. It is very critical to talk 
to them together, have them understand the facts of life, have 
them understand that the United States is not prepared to pour 
money down a rat hole, and that, given the current situation in 
the United States of belt tightening, it is not going to be 
possible to rely on money as a resource.
    Ms. Speier. Thank you.
    Next.
    Mr. Tankel. Thank you.
    Just to echo those remarks and expand on them very briefly, 
I think it is important, in the interest of transparency and 
when we have that honest dialogue, first to acknowledge that at 
the very least both countries don't perceive themselves as 
having the same strategic interests. We often talk as if the 
United States and Pakistan are on the same page in terms of 
their medium- and long-term strategic interests. I think that 
when that honest dialogue happens, it is important to 
acknowledge that right now I think Pakistan perceives its 
strategic interests differently than the United States 
perceives its strategic interests. So there is a disconnect.
    Let me also just say that I think when having that debate 
and that dialog and that discussion, that interlocutors are 
going to be important as well. To date, for operational 
reasons, there has been a lot of reliance on the military-to-
military relationship. In the long term we need to be taking 
greater steps to build up civilian governance within Pakistan, 
and that is going to mean moving away from those interlocutors 
even if the civilian government of Pakistan is quite weak. But 
ultimately continued reliance on military and ISI is not going 
to be a recipe for long-term stability.
    Ms. Speier. Thank you.
    Dr. Jones.
    Mr. Jones. I think one important step on the trust issue is 
to be honest. Both sides have made mistakes over the past 
several years. The United States has publicly criticized 
Pakistan in ways that have been unhelpful. It has also 
conducted some operations and missions in Pakistan without 
Pakistan's knowledge that have been unhelpful.
    At the same time I would say that Pakistan has to admit 
privately--I have served both on the Government side and in the 
think tank side. The Pakistan government has to admit at least 
privately that it has supported some militant groups. It has to 
be honest in private to U.S. Government officials. If it is 
not, there is no way to have a trusting relationship. That 
honesty simply has not been there over the past decade.
    So I would say both sides at this point can say, we have 
made mistakes, but both sides also then have to admit what 
those mistakes are and then begin to find ways to mutually 
address them. If we can't even be honest on the mistakes we 
have made, we will never move forward.
    Ms. Speier. My time is up, but maybe Dr. Kagan can respond.
    Mr. Kagan. I think we are a long way from trust with 
Pakistan. I think it is going to be a very long time before 
they trust us or we trust them, given the history of our 
relationship.
    I think that the suggestions that have been made by the 
other panelists are generally sound, and I would second them. I 
would only add this: There are two narratives that have 
persisted in South Asia--one of them for a long time, and the 
other since 9/11--that decimate any trust that people in the 
region would have in us. One is that we will always abandon 
them, and we will always, at the end of the day, grow tired of 
the game and leave, and they will be stuck with whatever is 
left there. The other is, since 9/11, that all we care about is 
getting bin Laden, and once we get bin Laden, we will go, and 
everything else is a tool to that end.
    I think we stand at a very important precipice in American 
policy right now, because if we take actions now that reinforce 
those beliefs, first of all, the repercussions will not just be 
felt in Pakistan, they will also be felt in the countries 
benefiting from or going through the throes of the Arab Spring; 
they will be felt around the world because they are very 
profound tropes of American foreign policy.
    But I think even more importantly, it is essential that we 
find ways not only to communicate our frustration to Pakistan--
which we do, and which we need to do--but also to communicate 
the fact that we are not leaving, whatever leaving means. That 
is not to say we will have 150,000 troops in Afghanistan 
forever, it is not to say we will be giving billions of dollars 
to Pakistan forever, but it is to say that we will not, 
whatever we do, repeat the mistakes of the 1990s when we 
wearied of the struggle or thought we had won, and simply 
abandoned the region to its fate and played no further role 
until we were attacked. I think it is critical that we find 
ways to send a message that we are not going to do that, and to 
show in that region, as in many other places, sending messages 
is much less important than what you actually do.
    Mr. Meehan. Well, I want to thank our witnesses for your 
very, very valuable testimony. Again, I regret, but it is the 
reality of these circumstances that we have these other issues 
that have come in conflict with our schedule. I would ask the 
witnesses to please respond to any questions in writing if, in 
fact, there should be some that would come from Members that 
were not able to ask questions today. I thank you for your 
testimony, and the hearing record will remain open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 3:05 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
